                            Office of the Inspector General
                    Corporation for National and Community Service




                                      Audit of
                  Corporation for National and Community Service
                          Contract No. 95-743-1005 with
                     Outsourced Administrative Systems, Inc.

                            O I G Audit Report Number 00-21
                                    August 13,1999




                                        Prepared by:
                                 PricewaterhouseCoopers, LLP
                                    1616 N. Fort Myer Drive
                                   Arlington, Virginia 22209

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                     Contract # J9G80023
                                      Task Order B9G9W101


This report was issued to Corporation management on January 6,2000. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than July 5,2000, and complete its corrective
actions by January 6,2001. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                   Office of the Inspector General                                CORPORATION
                         Corporation for National and Community Sewice                            FOR NATIONAL
                                     Audit Report Number 00-21
                      Audit of Corporation for National and Community Sewice                       SERVICE
                                   Contract No. 95-743-1005 with
                               Outsourced Administrative Systems, Inc.

PricewaterhouseCoopers, LLP, under contract to the Office of Inspector General, audited $20,232,535 in
claimed costs for heath care benefits paid on behalf of the Corporation for National Service and for
administrative costs incurred during the period from October 1, 1994 through September 30, 1998, by
Outsourced Administrative Systems, Inc. under CNS Contract No. 95-743-1005. The audit included tests
to determine whether costs reported to the Corporation were documented and allowable in accordance with
the terms and conditions of the contract. CNS OIG has reviewed the report and work papers supporting its
conclusions and agrees with the findings and recommendations presented.

Health Care Claims Audit Results
PricewaterhouseCoopers' statistical sampling and other tests revealed, among other things, that OASYS:
   -   did not perform coordination of benefits investigations as required by the contract;

   -   did not perform third party liability investigations as required by the contract;

   - inconsistently and inaccurately applied pre-certification penalties;

   -   paid for medical procedures related to pre-existing conditions that should not have been paid;

   -   paid claims for ineligible members; and

   - did not have adequate inventory controls for claims documentation.

PwC identified $3,820,799 of extrapolated overpayment monetary errors and $1,349,6 2 of extrapolated
underpayment monetary errors resulting from these deficiencies.

Administrative Costs Audit Results
The firm also audited the administrative invoices submitted and paid under the contri :t and questioned
$2,209,436 of administrative costs billed, primarily because OASYS lacked adequate records to support
administrative costs claimed. As a result of this work, PwC identified several internal control deficiencies
including:
   - OASYS did not have formal policies and procedures related to its cost accounting practices or controls
     in place to ensure the proper recording of labor to cost objectives;

   - OASYS did not adjust submissions for final overhead rates that differ from the billed overhead rate;
     and

   -   OASYS did not have accounting staff trained in the Federal Acquisition Regulation or Federal Cost
       Accounting Standards requirements.



                                                                                              Inspector General
                                                                                              1201 New York Avenue, NW
                                                                                              Washington, DC 20525
OASYS Computer Systems Review Results and Other Internal Control Matters

PwC's audit procedures included review of the three main systems for processing and recording data related
to the contract. As a result of this work, PwC identified additional internal control deficiencies, including:

   - OASYS did not have adequate procedures in place to ensure the security of its data center; and

   -   OASYS did not have adequate segregation of duties within both OASYS's core claims processing
       systems and its accounting system.


We provided a draft report to OASYS and the Corporation for review and comment. OASYS, through its
attorneys, responded to the draft and disagreed with a majority of the findings and questioned costs.
OASYS' response, and PwC's evaluation thereof, are included as Appendix B. In its response (Appendix C),
the Corporation stated that it had reviewed the draft but did not have specific comments.
                                                                          PricewaterhouseCoopersLLP
August 13, 1999                                                           1616 North Fort Myer Drive
                                                                          Arlington VA 22209-31 95
                                                                          Telephone (703) 741 1000
Corporation for National Service                                          Facsimile (703) 741 1616
Office of the Inspector General



Enclosed please find our report prepared in connection with the Audit of Health Benefits Plan
Contractor Performance. The scope of our work was as follows --

   Review of health care claims paid by Outsourced Administrative Systems, Inc. (OASYS)
   on behalf of the Corporation under the terms of contract No. 95-743-1 005.
   Review of administrative costs incurred by OASYS and billed to the Corporation under
   the terms of the contract.
   Evaluation of internal controls, and compliance with the terms of the contract, and
   applicable laws and regulations.
   Evaluation of claims processing and accounting computer systems in place at OASYS.

Using a statistically valid sample, we tested $17,641,855 of health care claims paid by
OASYS during the contract period. We identified $3,8 18,399 of extrapolated overpayment
monetary errors and $1,349,6 12 of extrapolated underpayment monetary errors. These errors
resulted primarily from inconsistent performance of coordination of benefits investigations,
lack of third party liability investigations and unsupported claims.

We questioned $2,209,436 of administrative costs billed to the Corporation under the contract
because OASYS was not able to adequately support these costs. We also noted several
internal control weaknesses and instances of non-compliance with the terms of the contract
and applicable laws and regulations.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Table of Contents

 Executive Summary
    Background
    Objectives, Scope, and Methodology
    Summary of Findings

 Definition of Terms

 Section I - Health Care Claims Review
    Summary of Work Performed
         -Health Care Claims Re-Adjudication
         -Operations Review of Health Care Claims Processing
    Findings and Recommendations
         -Questioned Costs
         -Compliance Issues
         -Control Weaknesses

 Section I1 - Administrative Costs Review
     Summary of Work Performed
    Findings and Recommendations
         -Questioned Costs
         -Compliance Issues
         -Control Weaknesses

 Section I11 - Computer Systems Review
     Summary of Work Performed
    Findings and Recommendations
         -Control Weaknesses

 Appendix A - Detailed Objectives and Methodology

 Appendix B - OASYS' Response and Our Evaluation
       OASY S' Response
       PwC's Evaluation

 Appendix C - Corporation's Response
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Executive Summary

Background

On January 5, 1995, Adminastar Solutions, Inc. (subsequently known as Acordia Healthcare
Solutions, Inc., and Outsourced Administrative Systems, Inc., hereinafter known as OASYS)
entered into an agreement to serve as a health care benefits program administrator for the
Corporation for National and Community Service (hereinafter known as the Corporation). This
contract (#95-743-1005), retroactively effective as of October 1, 1994 had an original term of one
year, but was extended for three additional one-year options. Upon expiration of the original
agreement, a new agreement was entered with OASYS, effective October 1, 1998. When
OASYS signed the October 1994 contract with the Corporation, they agreed to provide the
following:

    Quality administrative services;
    Subscriber utilization review service, to be accessed via an 800 number; and
    Assistance in managing the cost of this program on a day-to-day and long-term basis.

Under the contract, OASYS processed on behalf of the Corporation all health benefits for VISTA
Volunteers, National Civilian Community Corps (NCCC) Members, AmeriCorps Leaders, and
National Service Fellows, (hereinafter known collectively as members) under a self-insured
program.

As of October 1, 1994, OASY S was servicing, on behalf of the Corporation, approximately 4,900
members enrolled in the health care benefits program. By October 1, 1998, this number had
increased to approximately 8,015 members. During this four-year period, total annual costs
associated with the health care benefits program were between $5 to $6 million.

Objectives, Scope, and Methodology

We were engaged by the Corporation's Office of the Inspector General (OIG) to audit and report
on:

    The health care claims paid by OASYS on behalf of the Corporation under the terms of the
    contract.
    Administrative costs incurred by OASYS and billed to the Corporation.
    Internal controls, and compliance with the terms of the contract, laws and regulations.
    The claims processing and accounting computer systems in place at OASYS.

We performed the audit in accordance with Government Auditing Standards issued by the
Controller General of the United States. Our fieldwork was conducted at OASYS' Indianapolis,
Indiana offices from July 12, 1999 through August 6 , 1999.

Our health care claims audit consisted of a re-adjudication of a statistically valid sample1 of 800
claims paid for services provided between October 1, 1994 and September 30, 1998 and an
operations review. Our administrative costs audit was comprised of a review of all administrative
invoices associated with the contract, as well as a review of the related accounting controls.
Finally, we reviewed the general controls for the accounting and claims processing systems


1
 We used a stratified monetary sample that resulted in a ninety-five percent confidence level, three percent
precision and a five percent error rate. See Appendix A for further details.


Page 1                                                                          ~ X E W A T ~ H O ~ P E R0S
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Executive Summary

utilized in performance of the contract. Appendix A provides a detailed description of the work
performed.

OASYS, through its legal counsel in a letter dated November 15, 1999, provided a response to a
draft of this report. OASYS disagreed with a majority of findings. The response and our
evaluation are included as Appendix B.

Summary of Findings

Health Care Claims Review

    We noted $3,8 18,399 of extrapolated overpayment monetary errors and $1,349,612 of
    extrapolated underpayment monetary errors. (See page 7.)

    OASYS' financial error rate is significantly greater than industry standards. (See page 8.)

    OASYS is not performing coordination of benefits (COB) investigations as required by the
    contract. (See page 9.)

    OASYS is not performing third party liability (TPL) investigations as required by the
    contract. (See page 9.)

    OASYS inconsistently and inaccurately applied pre-certification penalties. (See page 10.)

    OASYS paid for medical procedures related to pre-existing conditions that should not have
    been paid. (See page 10.)

    OASYS paid claims for ineligible members. (See page 11.)

    The benefits as outlined in the contract were misinterpreted in the Health Benefits Brochure
    provided to the members. (See page 11.)

    Benefit overrides occurred without documented approval from the Corporation's
    management. (See page 12.)

10. OASYS did not comply with the processing time requirements in the contract. (See page 13.)

11. OASYS does not have adequate inventory controls for claims documentation. (See page 13.)

12. OASYS' Health Care Claims Processing System (HCPS) has limited capabilities to
    accurately capture data elements as they appear on the submitted claims. (See page 14.)

13. Provider information in HCPS does not appear to be accurate. (See page 15.)

14. OASYS' processing error rate is significantly higher than industry best practice standards for
    self-insured programs. (See page 15.)
15. OASYS has outdated policies and procedures related to claims processing. (See page 16.)

16. OASYS holds claims payment checks in a desk drawer due to insufficient funds in its
    Corporation for National and Community Service claims payment account. (See page 16.)




Page 2                                                                   ~ ~ M / A ~ ~ ~ C Ob P E R S
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Executive Summary

17. The customer service unit does not meet the minimum performance standards that OASYS
    has set for average telephone answering time and the corresponding standard abandonment
    rate. (See page 17.)

Administrative Costs Review

18. We questioned $2,209,436 (85 percent) of invoiced administrative costs primarily because
    OASYS could not provide adequate support for the charges. (See page 19.)

19. OASYS is not in compliance with Federal Acquisition Regulation (FAR) subpart 42.7 and
    contract clause FAR 52.2 16-7(d) - Indirect Cost Rates. (See page 25 .)

20. OASYS is not in compliance with Cost Accounting Standard (CAS) 401 - Consistency in
    Estimating, Accumulating, and Reporting Costs. (See page 26.)

21. OASYS is not in compliance with CAS 405 - Accounting for Unallowable Costs. (See page
    26.)

22. OASYS is not in compliance with CAS 418 -Allocation of Direct and Indirect Costs. (See
    page 26.)

23. OASYS did not have records to support administrative costs claimed. (See page 26.)

24. OASYS has no formal policies and procedures related to its cost accounting practices. (See
    page 27.)

25. OASYS does not have controls in place to ensure the proper recording of labor to cost
    objectives. (See page 27.)

26. OASYS does not adjust submissions for final overhead rates that differ from the billed
    overhead rates. (See page 28.)

27. OASYS' accounting staff has no training in FAR or CAS requirements. (See page 28.)

Computer Systems Review

28. OASYS does not have a complete set of policies and procedures governing systems security
    administration and monitoring. (See page 30.)

29. OASYS does not have an up-to-date business continuity plan in place. (See page 3 1.)

30. OASYS does not have adequate procedures in place to ensure the security of its data center.
    (See page 3 1.)

3 1. Certain Local Area Network (LAN) environment logical security settings are not adequately
     or consistently applied. (See page 32.)

32. Several claims processors have excessive dollar authorization limits. (See page 33.)

33. Inadequate segregation of duties exists within both OASYS' core claims processing systems
    and it accounting system. (See page 33.)
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Definition of Terms

Adjudicate: process a claim for payment or denial.

Autocoder: a database of standard medical codes and corresponding descriptions that resides on
the claims processing system.

CPT 4 code: (Physician's) Current Procedural Terminology - 4thEdition: a list of medical
services and procedures performed by physicians and other providers. Each service and/or
procedure is identified by its own unique five-digit code. CPT has become the health care
industry's standard for reporting of physician procedures and services on claims.

DME: Durable Medical Equipment

Fee Schedule: a comprehensive listing of fee maximums used to reimburse a physician and/or
other provider on a fee-for-service basis.

Health Care Financing Administration (HCFA) 1500: a universal billing form developed by
HCFA, usually for ambulatory claims submitted by physicians and other providers.

HCPCS: HCFA Common Procedural Coding System

HCPS: Health Care Claims Processing System

ICD 9: International Classification of Diseases - 9thEdition: a listing of diagnoses and
identifying codes for reporting diagnosed diseases. The coding and terminology provide a
uniform language that designates primary and secondary diagnoses and provides for consistent
coding of claims.

Julian Date: a five-digit date format used by the HCPS to track receiving dates for claims.

LAN: Local Area Network

MACESS: a software application that allows scanning of claims and documentation tracking.

Non-Participating Provider: a provider that has not contracted with the carrier or health plan.

Participating Provider: a provider that has contracted with the carrier or health plan.

Pre-Certification (Pre-Authorization): approval for an inpatient stay with the approved number
of days for the stay.

Preferred Provider Organization (PPO): an arrangement between a panel of providers that
agree to a specified fee schedule in return for preferred status.

Subrogation: the assumption by a third party of another's legal right to collect a debt or
damages.

Suspended Claim: a claim that cannot be fully adjudicated upon data entry because missing
information is required, research is necessary, or other parties (Utilization Management) may
need to participate in the claim review.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Definition of Terms

Third Party Administrator: an independent entity that administers group benefits and claims
processing for a self-insured companylgroup.

Turn-around Time: the time measured from the date a claim is received until it is paid or
denied.

UB 92 (Uniform Billing Code of 1992): a claim form developed for use by hospitals, skilled
nursing facilities and home health care agencies.

U&C (Usual and customary): generally accepted payment amount for medical services
provided.

Utilization ReviewIManagement ( U M M ) : a set of procedures used by purchasers of health
benefits to contain health care costs through assessment of the appropriateness of care.




Page 5                                                                                  @
                                                                       PP,CEWATERHOU~WPERS
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

Summary of Work Performed

Health Care Claims Re-Adjudication

OASYS provided us with a download of claims data for the period of contract performance
(October 1, 1994 through September 30, 1998). The total value of the claims submitted by
members during this period was $17,641,855. From this population, we selected a sample of 200
claims from each contract year. The 800 claims selected had an aggregate value of $2,844,188.
We used a stratified monetary sampling methodology in order to select claims representative of
the Corporation's dollar expenditures rather than merely of OASYS' total transactions.

Our purpose for using statistical sampling of claims paid during the contract period was to
determine an overall estimate of the monetary error in the population. While the resulting
estimate is statistically valid, the actual error may vary.

Our re-adjudication of the claims revealed three classes of errors: monetary errors, potential
monetary errors, and non-monetary errors. Monetary errors are processing errors with a definable
financial impact. Examples of monetary errors include data entry errors, payments for ineligible
members, and payments for disallowed procedures. Potential monetary errors are processing
errors with indeterminable dollar values. One example of a potential monetary error is payment
for potential pre-existing conditions. In these cases, we were unable to determine whether a
condition was actually pre-existing without further medical documentation. Non-monetary errors
are processing errors that represent a departure from defined procedures, but that do not have a
financial impact. These errors normally occurred when claim information in the HCPS did not
mirror information on the actual claim. Examples include Julian dates that do not match receipt
dates, and procedure codes with missing modifiers.

The results of our sample testing are summarized in the following table. These results, including
the extrapolations for the monetary errors, are expanded upon in finding no. 1 on page 7.

                                 Sample Errors (Unextrapolated)
                               Monetary                 Potential            Non-
   Fiscal       No. of   I    Over-         Under-      Monetary           Monetary       Total
   Year         Errors       payments      payments      Errors             Errors        Errors
 1995             82          $257,270        $ 9,134        8                33           123
 1996             70            198,302         13,570       5                30           105
 1997             61           378,427           2,677       5                54           120
 1998             70             45,127          7,564      2                 35           107
 Total           283          $879,126        $32,945       20                152          455
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

Operations Review of Health Care Claims Processing

The on-site review of claims operations provided us with an understanding of the environment in
which the Corporation's health care claims are processed. It also enabled us to associate claims
processing errors with weaknesses in control procedures and to identify potential weaknesses.

Our operations review included:

        Interviews with OASYS' Director of Information Technology (IT), Director of
        Marketing, Claims Manager, Claims Supervisor, and Mailroom staff;
        A walkthrough of processing procedures and workflow; and
        A review of an administrative questionnaire completed by OASYS.

Claims are received at OASYS on a daily basis from ForMost, the preferred provider
organization (PPO) network used by OASYS. Claims received directly from providers are
forwarded to ForMost, which determines the participatory status of the providers and, if
necessary, attaches a re-pricing sheet to the claim. Once returned to OASYS, the claims are taken
off-site to be scanned into the MACESS system. The claims are then returned to OASYS and
entered by the processors. Incomplete claims are suspended, put in queue, and worked by
processors with expertise in the specific suspense category. Clean claims are uploaded to HCPS
and adjudicated for payment. Check runs are done twice a week and the checks are sent to the
finance department for validation of check numbers and amounts.


Findings and Recommendations

Questioned Costs

During our claims re-adjudication, we identified the following monetary errors.

1. We noted $331 8,399 of extrapolated overpayment errors and $1,349,612 of extrapolated
   underpayment errors.

    Of the 800 health care claims re-adjudicated, we noted that 283 claims (35.4 percent) had
    monetary errors. The total monetary error associated with these claims was $912,071
    (overpayments of $879,126 and underpayments of $32,945). Because OASYS was not able
    to provide supporting claim documents for 49 sample items, the number of sample claims
    actually re-adjudicated was only 75 1. When extrapolated over the entire population, the
    result was a total monetary error of $5,168,011. The following tables present the extrapolated
    results of our re-adjudication in detail.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review


                                       Extrapolated Overpayment Errors

                                   FY 1995       FY 1996      FY 1997        FY 1998         Total     (See
                                                                                                     finding)
Co-ordination of Benefits                                                                                 3
Third Party Liability                                                                                     4
Pre-certification                                                                                         5
Pre-Existing Conditions                                                                                   6
Not Eligible                                                                                              7
Missing Claims                                                                                            11
Data Entry                                                                                                12
PPO Issues                                                                                                13
Other Overpayment 1ssues2
Total


                                       Extrapolated Underpayment Errors

                                   FY 1995       FY 1996      FY 1997        FY 1998         Total      (See
                                                                                                      finding)
Co-ordination of Benefits      I   $          01 $        01 $     66,7681 $          01 $     66,7681
Third Party Liability                         0           0             0             0             0
Pre-certification                        10,303      14,261        10,509         2,460        37,533
Pre-Existing Conditions                       0           0             0             0             0

iss sing claims
Data Entry
PPO Issues
Other Underpayment 1ssues2
Total


2. OASYS' financial error rate is sianificantlv greater than industry standards.

    The financial error rates for OASYS were significantly higher than the industry best practice
    standard for self-insured plans (less than 1 percent). Limited Coordination of Benefits (COB)
    (finding no. 3) and Third Party Liability (TPL) investigations (finding no. 4), missing claims,
    incorrect application of pre-certification penalties (finding no. 5), duplicate payments,
    ineligibility on the date of service (finding no. 7), and incorrect application of office visit co-
    pays (finding no. 8) were issues that impacted the financial error rate.




2
  Other OverIUnderpayments Issues represent several types of monetary errors, such as incorrectly
requiring a co-payment, duplicate payments. and incorrect charges for a s~ecific~rocedurecode.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

    The financial error rate for each year of the sample claims is listed in the following table:

                              I    Year
                                             I   Best Practice    (    Financial
                                                                      Error Rate
                                                 Less than   1%         26.5 1%
                                                 Less than   1%         28.29%
                                                 Less than   1%         23.83%
                                                 Less than   1%         21.63%

Compliance Issues

As health benefits administrator, OASYS serves as an agent for the Corporation. As such,
OASYS has a fiduciary responsibility to serve in the Corporation's best interest. To meet this
responsibility, OASYS must administer the Corporation's health care benefits plan exactly as
stated in the contract. However, during our fieldwork we determined that OASYS has not
administered the Corporation's health benefits plan in accordance with the terms of the contract.
Specifically we noted the following:

3. OASYS is not performing coordination of benefits (COB) investigations as required bv the
   contract.

    According to the terms of the contract, if a member is eligible for Medicare or has other
    private group health insurance, coverage by the Corporation is secondary. OASYS is
    required to obtain this COB information from members through the use of an annual COB
    questionnaire. However, we did not see any evidence that this information has been entered
    into the Health Care Claims Processing System (HCPS). Without COB information, the
    claims processors cannot make accurate payment decisions on behalf of the Corporation. We
    determined that 53 claims were incorrectly adjudicated and paid with the Corporation as the
    primary payer when the member had other insurance that should have covered those claims.
    The extrapolated monetary errors related to the lack of COB investigations are overpayments
    of $1,226,48 1 and underpayments of $66,768.

    In our discussions with OASYS management, we determined that they did not have a
    complete understanding of their responsibility for performing COB investigations under the
    terms of this contract. Information relating to COB in the benefits brochure published by
    OASYS was in conflict with of the terms of contract.

    We recommend that the Corporation instruct OASYS to enter all members' COB information
    into the HCPS and immediately begin performing COB investigations as required by the
    contract.

4. OASYS is not performing third party liability (TPL) investigations as required by the
   contract.

    The contract states that "services eligible for coverage under a personal injury protection
    (PIP) contract or no-fault auto insurance" are excluded. We identified 12 claims that were
    paid for injuries resulting from motor vehicle accidents (MVA), but found no documentation
    indicating that a TPL investigation had been completed. We were able to easily identify the
    MVA claims by information submitted on the claims. The claims indicated that the member
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

   had motor vehicle insurance or ICD9 diagnosis " E codes were listed. "E" codes further
   define the nature and cause of an injury or an illness. For example an "E" code could identify
   an injury as a spinal injury occurring as a result of a MVA.

   The total amount paid for these 12 claims was $222,655, which extrapolated to overpayments
   of $3 70,562.

   Additionally, section J of the contract item D entitled "Contractor Reports" requires OASYS
   to submit quarterly COB and subrogation report. This report is to include information
   relating to charges, payment amounts recovered, percentage of savings, and savings resulting
   from Medicare payments. We found that these reports are not prepared by OASYS.
   Moreover, OASYS management disputes that they are contractually obligated to perform
   subrogation functions and are presently putting together a proposal to the Corporation to
   perform this function.

   We recommend that the Corporation instruct OASYS to perform TPL investigations, as
   required by the contract, whenever a claim is submitted indicating injuries sustained in an
   accident.

5. OASYS inconsistently and inaccurately applied pre-certification penalties.

   Inconsistent and inaccurate application of the pre-certification penalties resulted in monetary
   errors. The contract requires pre-certification for all inpatient stays, and outpatient
   procedures greater than $500. A penalty of $100 should be applied for outpatient services
   and $300 should be applied for inpatient services that were not pre-certified as required. In
   our sample, we noted that the pre-certification penalties were not being consistently applied,
   resulting in overpayments of $5,719 and underpayments of $6,185 in our sample. These
   errors extrapolated to overpayments of $5 1,581 and underpayments of $37,533. Further, pre-
   certification penalties have a direct financial impact on the Corporation's members.

    We recommend that the Corporation instruct OASYS to ensure that pre-certification is
    consistently obtained, and that penalties are applied when required by the contract.

6. OASYS paid for medical procedures related to vre-existing conditions that should not have
   been paid.

    The contract clearly excludes payment for medical procedures related to pre-existing
    conditions. However, we noted several instances where claims for pre-existing conditions
    were paid. These cases represented a total extrapolated monetary overpayment error of
    $149,173. In addition, we identified seven potential monetary errors totaling $39,372 relating
    to pre-existing conditions. In these seven cases, OASYS was not able to produce supporting
    documentation for investigation of pre-existing conditions by medical review. Thus, we
    could not validate whether the claims were correctly paid.

    Claims for pre-existing conditions may have been paid because OASYS uses an "Always
    Pay" diagnoses list. This list contains potential pre-existing conditions such as Chronic
    Sinusitis, Polycythemia Vera, and Metabolic Disorders.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

   We recommend that the Corporation instruct OASYS to carefully review all diagnosis codes
   and provider claims support at the time of claim adjudication to ensure that no pre-existing
   conditions are paid with the Corporation funds. The Corporation should also instruct OASYS
   to stop using an "Always Pay" list in the adjudication of the Corporation's claims.

7. OASYS paid claims for ineligible members.

   OASYS receives biweekly updates of eligibility information from the Corporation. We
   identified several instances where the information provided by the Corporation was
   inaccurate or missing effective, birth, and termination dates. As a result, we noted claims
   paid for members who were not eligible on the date that the health care service was provided.
   In one sample claim, eligibility and termination dates in HCPS were inaccurate, resulting in
   the member's claims being paid for almost two years after the actual termination date.
   Though the termination date was retroactively updated, we were not able to determine if the
   funds incorrectly paid for these claims were recovered and returned to the Corporation.

   The Corporation's Health Benefit Plan is a twelve-month contract, becoming effective at the
   time the member enrolls. The plan is effective as long as the member remains in service or
   twelve months at most. We identified termination dates in the system listed as ''00100100".
   OASYS stated that the termination date is received from the Corporation on the eligibility
   update tape and is only changed when the member terminates. The Corporation's
   representative stated that they entered the termination date into the VISTA Management
   System (VMS) as "00100100" so that the system would only have to be updated when the
   member terminates service to the Corporation. However, without a termination date in the
   system, the processor is forced to adjudicate the claim under the assumption that the member
   is eligible. Because of the significant inaccuracies noted in the eligibility information, we
   were not able to determine whether the members were eligible on the date of service.
   Monetary overpayment errors related to the payment of ineligible claims extrapolated to
   $413,114.

   We recommend that the Corporation enter the expected termination date in VMS for all
   members. This date should then be updated annually if the member continues in service or at
   the time of termination, whichever is sooner.

8. The benefits as outlined in the contract were misinterpreted in the Health Benefits Brochure
   provided to the members.

    The benefit brochure produced by OASYS (as required by the contract) does not contain
    accurate descriptions of plan benefits or member responsibilities as outlined in the contract. A
    "Schedule of Benefits" was developed from this brochure and is used by claims processors in
    adjudicating the Corporation's claims.

    One example of this misinterpretation related to COB. The contract states that for "services
    for which a volunteer/corps memberlleader is eligible for reimbursement under Medicare, or
    any or group health insurance, that plan shall be the primary payer." However, the brochure
    states: "(1) If a participant has any other group insurance, that insurance pays first, (2) if the
    participant is covered as a member under [the Corporation's] group contract and as a
    dependent under another plan, we will pay first, and (3) if a participant becomes disabled




Page 1 1                                                                    ~~IQWA~~OU.COPERS
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

   prior to age 65 or is otherwise entitled to Medicare benefits, the benefits received from us will
   be reduced by the amounts paid by Medicare."

   Also, the brochure states that a $5 co-pay is required for outpatient visits. However, the
   contract requires a $5 co-pay for doctor office visits. The co-pay was applied inconsistently
   to the sample claims. Co-pay errors (for other than visits to a doctor's office, i.e. physical
   therapy) have been designated as monetary errors. These inconsistencies had a direct
   financial impact on the Corporation's members.

   Furthermore, we received inconsistent responses from OASYS regarding the effective
   application date of the co-pay. OASYS provided us with two different dates when co-pay
   became effective. These dates were October 1, 1997 and October 1, 1998. However,
   contract modification M035, which includes the co-pay requirements, has an effective date of
   May 18, 1998.

   We recommend that the Corporation instruct OASYS to revise the brochure and all internal
   documents used in adjudicating claims to accurately reflect benefits as defined in the
   contract.

9. Benefit overrides occurred without documented approval from the Corporation's
   management.

   We identified sample claims that were paid for benefit overrides. The identified benefit
   overrides occurred for more than one member and were for inpatient stays exceeding contract
   limitations, outpatient services exceeding contract limitations and non-covered services.
   According to OASYS, the Contracting Officer's Technical Representative (COTR) verbally
   approved the payment of theses claims. There was no documentation in the system
   supporting that Corporation management had approved these overrides. The contract, Appeal
   Process, states the following:

   "To resolve claim disputes, ... participant shall write or call the VISTA/NCCC/AmeriCorps
   Leaders dedicated service unit. Once the [service representative] receives the call or written
   inquiry, he or she shall research the question or concern, retrieve copies of the claim in
   question, and/or other pertinent information. Coding, benefit appropriateness, pricing, and
   patient historical data shall be verified depending on the specific situation. Once a complete
   evaluation is made, the [representative] shall notify the patient of the outcome. If medical
   review is necessary, a nurse reviewer is assigned to the case. If a higher level review is
   required, a physician consultant specializing in the services performed is assigned. The
   average time to respond to a request for an appeal shall be ten (10) calendar days."

    We recommend that the Corporation instruct OASYS to follow the appeals process as
    established in the contract. If, for policy purposes, the Corporation wants to establish a
    second level of appeal, the Corporation needs to take the steps necessary to ensure that all
    members are aware of it, including contract modification and revision to the health plan
    brochure.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review


10. OASYS did not comply with the processing time requirements in the contract.

   The contract requires that 90 percent of clean claims be processed within 14 days, which is
   also the industry best practice standard. However, we noted that only 38 percent of sample
   claims met this performance standard. The contract also requires that 98 percent of COB
   claims be processed within 28 days. Because of the COB issues identified in our re-
   adjudication, we could not determine the percentage of sample claims that were processed
   within this standard.

   Also, the contract requires that 85 percent of ineligible claims be denied within 14 days. We
   could not determine the percent of claims in the sample that met this performance standard
   because the sample did not contain enough denied claims to calculate a statistically valid
   result. Compounded by the issue of payments for ineligible claims (issue identified related to
   eligibility data in finding 4, above) we do not believe a projection would be accurate.

   A possible reason for OASYS not meeting these contract requirements may be the large
   backlog of unprocessed claims. As of August 4, 1999, OASYS had a backlog of more than
   1,800 claims waiting to be processed for the Corporation's contract.

   The sample claims that were processed within industry best practice standards are illustrated
   in the following table.

                        Fiscal    Number Processed            Percent of Total
                        Year     within Standard of 14            Claims
                                         Days
                        1995               67                       34%
                        1996               92                       46%
                        1997              100                       50%
                        1998               44                       22%
                        Total             303                       38%

   Our calculated average turn around time for the sample claims is 52.4 days. This was higher
   than even the 28 days required by the contract for COB claims. Only 38 percent (303) of the
   sample claims were processed within 14 days. The calculated turn around time for 16.4
   percent of the sample claims was greater than 100 days; one claim had a turn around time that
   was greater than 500 days. The slow turn around times highlight the need for the Corporation
   to more closely monitor OASYS' performance. Further, OASYS should identify and rectify
   the underlying causes for these delays.


Control Weaknesses

11. OASYS does not have adequate inventory controls for claims documentation.

    OASYS staff had difficulty locating the selected claims for our review. Ultimately, OASYS
    was unable to provide documentation for 49 of the 800 sample claims. The extrapolated total
    monetary overpayment error of these missing claims was $1,111,647.




Page 13                                                                 ~ ~ ~ E R H O U @ ~ J@E R S
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

   Not maintaining logs to track when claims are received or when claims are sent offsite for
   imaging may have contributed to OASYS' inability to locate claims. According to the
   Director of Information Technology, the turn around tlme for claims sent offsite for imaging
   is 24 hours. However, because no log is kept, we were unable to validate this statement. Nor
   could we validate that the number of claims returned to OASYS was identical to the number
   sent out for imaging.

   Claim documents contain very sensitive data, including a member's name, date of birth,
   social security number, and medical information. Industry best practices would suggest that
   strong inventory controls be in place to reduce the risk of misuse or loss of such sensitive
   information.

   We recommend that the Corporation instruct OASYS to establish a claims inventory log to
   track when claims are received, are sent offsite for imaging, are returned from imaging, and
   adjudicated and closed.

   The HCPS has limited capabilities to accurately capture data elements as they appear on the
   submitted claims.

   We noted several conditions that may lead to inaccurate data in the HCPS. Specifically, a
   submitted claim should be entered into the processing system exactly as it is received, but the
   HCPS system has limitations that preclude this from occurring. We identified that separate
   but identical revenue codes and procedure codes in the same claim were "rolled up" into one
   line. The HCPS has a limitation such that if there is more than one line item with the same
   revenue code, it will duplicate the first charge for all similar codes that follow. For example,
   if there were two line items in a claim with revenue code 300 (laboratory work) the first line
   item being a $6 urinalysis, the second being a $40 blood test, HCPS would replace the $40
   charge with $6. To circumvent this system limitation, OASYS aggregates similar revenue
   codes and enters them as one total. This causes the individual line item to lose its identity
   and prevents OASYS from determining whether subsequent claims duplicate parts of
   previously paid claims.

   Also, re-pricing sheets received from the PPO administrators do not re-price each claim by
   line item. OASYS receives a re-pricing sheet that only displays total discounted and saving
   amounts. Therefore, OASYS does not have the ability to enter discounted claims as they
   were initially submitted. Instead, they roll all codes to one line item for the discounted rate
   and enter the claim into the system. By rolling multiple codes into one line, it is more
   difficult for OASYS to ensure that duplicate payment of claim line items does not occur.

   HCPS only allows two ICD9 codes to be identified for each claim. Sample claims were cited
   as non-monetary errors when the ICD9 codes were not entered in the system as they appeared
   on the claim.

   UB-92 (the standard industry form used by hospitals for claims submission) revenue codes
   are not entered into the claims processing system as they appear on the claim. For purposes
   of claims processing, the revenue codes on hospital claims are rolled up to one line item,
   without any detail about the type of hospital admission or the surgical/diagnostic procedures
   provided. Non-covered services cannot be identified in this aggregate form to ensure that
   these services were denied prior to the calculation of "percent of charge" reimbursements.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review


   The claims processing system does not accept industry standard HCPC codes or ICD9
   procedure codes. Also, the system assigns entirely new claim numbers to claim adjustments,
   restricting the reviewers ability to easily identify and correlate the adjustments.

   We recommend that the Corporation instruct OASYS to upgrade their system's capabilities to
   accept all ICD9 diagnoses codes, HCPC codes, revenue codes and ICD9 procedure codes.
   The upgrade should also include a system of identifying claims adjustments to all related
   claims.

13. Provider information in HCPS does not appear to be accurate.

   We determined that approximately 90 percent of the providers who submitted claims under
   this benefit plan are listed in HCPS as non-participating with OASYS' PPO network. We
   believe that because OASYS must manually enter provider updates, the provider network
   status in HCPS is not accurate. As a result, providers identified as non-participating may
   actually be participating with the network.

   OASYS pays billed or usual and customary prices when the system identifies the provider as
   non-participating. Therefore, if the provider data is inaccurate, OASYS may not be taking
   advantage of discounts to which it is entitled. The additional and unnecessary costs would
   then be passed on to the Corporation. However, we were unable to determine whether a
   discount should have been taken. As result, our calculated monetary error rate may be
   understated. We calculated that 66.9 percent of the sample claims were paid as invoiced.

    We recommend that the Corporation instruct OASYS to vigorously pursue obtaining provider
    updates in electronic form from its PPO administrator.

14. OASYS' processing error rate is significantly higher than industry best practice standards for
    self-insured programs.

    The overall processing error rate of the sample claims for each year is illustrated in the table
    below. The industry best practice for processing error for self-insured plans is between three
    and five percent. In each year, OASYS significantly exceeded the industry best practice.

                                                              Processing Error
                        Fiscal Year         Standard
                                                                   Rate




    The processing error (the percentage of claims paid incorrectly) is comprised of both
    monetary and non-monetary errors. We identified 152 of the 800 sample claims had non-
    monetary errors. The non-monetary errors were related to incorrect entry errors of ICD9
    (International Classification of Diseases - Version 9) diagnosis and Physicians' Current
    Procedural T e r m i n o l 0 ~ ~Version
                                    - 4 ~ ~ (CPT4) procedure codes, and inaccurate provider and
    eligibility information in the system. Incomplete data entry of revenue codes, ICD9
    procedure codes and HCFA Common Procedure Coding System (HCPC) codes were not



Page 15                                                                    ~UN?!PHOU&~OPERS       a
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

   included in the above processing error rate because OASYS' proprietary claims system limits
   the entry of these data elements.

   The system limitations as discussed in finding no. 12, the misinterpretation of the health care
   benefits as discussed in finding no. 8, and the inadequate inventory control as discussed in
   finding no. 1 1 contribute to the high processing error rates. If OASYS adopts our
   recommendations for corrective actions for each of the related findings, the processing error
   rate should fall within industry norms.

15. OASYS has outdated policies and procedures related to claims processing.

   As previously discussed in the background information, OASYS has undergone numerous
   entity changes during the four year term of this contract. It has changed from being a
   subsidiary of a large health benefits administrator to its current form as a separate
   corporation. The policies and procedures currently in place are dated 1990. This date is five
   years prior to the contract start and eight years prior to OASYS becoming a separate
   corporation. These policies and procedures are outdated and obsolete.

   We recommend that the Corporation instruct OASYS to write new policies and procedures
   that reflect good internal controls. OASYS should review the new policies and procedures
   annually and update them when appropriate.

16. OASYS holds claims payment checks in a desk drawer due to insufficient funds in its
    Corporation for National and Community Service claims payment account.

   During our operational walkthrough, we noted that OASYS regularly holds a large number of
   health care claim checks in a locked drawer before mailing to the providers. At the time of
   our review, checks had been held for more than eight days. According to OASYS, checks are
   routinely accumulated while OASYS waits for the Corporation to deposit sufficient funds in
   the claims payment account. An OASYS representative told us that checks have been held
   for periods up to 90 days. This delay prevents OASYS from paying health care providers on
   a timely basis. Further, we believe that leaving checks in a desk drawer in an open area that
   OASYS shares with a tenant does not adequately safeguard the Corporation's assets.

   We recommend that OASYS work with the Corporation to ensure that adequate deposits are
   made into the claims payment account on a timely basis. We also recommend that OASYS
   work with its financial institution to establish a sufficient line of credit. This action will
   allow OASYS some flexibility in the event that occasional delays occur with the
   Corporation's deposits. Conversely, we recommend that the Corporation require that
   OASYS provide regular status reports of pending checks to compare with the Corporation's
   deposits. Once these changes have been implemented, we recommend that OASYS ensure
   that checks are mailed immediately after receiving signature. Until these changes are
   implemented, the Corporation should instruct OASYS to keep all checks locked in a safe in
   an area with limited access.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I - Health Care Claims Review

17. The customer service unit does not meet the minimum performance standard that OASYS has
    set for average telephone answering time, and the corresponding standard abandonment rate.

   OASYS has performance standards for average speed to answer (30 seconds) and
   abandonment rate (less than 5 percent). We reviewed a report for the time period from March
   22 through April 16, 1999 and identified that OASYS is not meeting these performance
   standards. The report indicated that the average speed to answer was 2 minutes and 17
   seconds, and that 17.2 percent of the calls tracked through the Automated Call Distributor
   (ACD) were abandoned.

   We recommend that OASYS adhere to its performance standards. If the volume of calls is
   too great for the existing customer service unit to handle, we suggest that OASYS adjust its
   staffing appropriately.




Page 17                                                                 ~VCEWAT~OU~WPERS
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section II - Administrative Costs Review

Summary of Work Performed

While on site at OASYS we also performed an audit of all administrative invoices associated with
the contract, as well as a review of the related accounting controls. Our work permitted us to
determine the allowability of administrative costs billed to the Corporation. In addition, our work
allowed us to determine if OASYS was compliant with the contract and applicable laws and
regulations, such as FAR and CAS. See Appendix A for additional details on our scope and
methodology.

Our findings with regard to the administrative costs claimed by OASYS are based on evidence
gathered by inspection and performing tests of the amounts billed to the Corporation by OASYS,
discussions with OASYS accounting and human resource staff and reviewing documentation
related to administrative costs claimed.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

Findings and Recommendations

Questioned Costs

18. We questioned $2,209,436 (85 percent) of invoiced administrative costs primarily because
    OASYS could not provide adequate support for the charges.

   Questioned costs are summarized in the Schedule of Contract Costs below and discussed in
   detail in the notes to this schedule.

                                     Schedule of Contract Costs

                                             Claimed        Questioned        Accepted       Notes
    Direct Labor Costs
       Salaries and Benefits                $ 651,582       $    651,582     $                 a
       Total Direct Labor Costs             $   651,582     $    651,582     $         -

    Non-Payroll Costs
      Consulting
      Supplies
      ContractJTemporary Labor
      FacilitiesIRent
      Depreciation
      Telephone/Communication
      Other Non-Payroll
      1994 Non-Payroll
      Other Unsupported Non-Payroll
      Total Non-Payroll Costs

    Overhead Costs                          $ 328,962        $   328,962                 -     k

    Claims Processing Charges
      Fee                                   $    25,496     $     25,496                       1
      Overhead                                    3,824            3,824                       1
      Indiana Taxes                                 386              386                       1
      Total Claims Processing Costs         $    29,706     $    29,706                  -
    Unsupported Other Invoices              $   126,596     $    126,596                 -     m
    Overbilled Amount                             5.011            5.011                 -     m

    Total
    Percent of Total


Notes to the Schedule of Contract Costs

a) We questioned the entire $65 1,582 claimed for salaries and related fringe benefits costs.
   OASYS was not able to support with time keeping records the labor costs billed to the
   Corporation. FAR 52.2152(f) states that "a contractor shall make available at its office, at all



Page 19                                                                    ~WT~HOL!~@~PERS         a
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section II - Administrative Costs Review

    reasonable times, the records, materials and other evidence for examination, audit or
    reproduction, until 3 years after final payment under the contract." As an alternative to
    verifying labor costs to time records, we requested OASYS to provide a reconciliation of its
    payroll records to the labor recorded in the general ledger. OASYS was not able to perform
    this reconciliation.

    In addition, OASYS was also not able to support the fringe benefit costs related to the
    claimed direct labor costs. While they were able to provide spreadsheets showing the
    allocation method used, they could not provide source documents for the individual elements
    in the fringe pool. In addition, the amounts on the fringe allocation spreadsheets for the cost
    center related to the contract did not agree with the associated fringe expenses recorded in the
    general ledger. We questioned these costs as unsupported and therefore unallowable in
    accordance with FAR 3 1.201-2.

                              Direct Labor and Related Fringe Costs

                             Fiscal Year       Salaries and Benefits
                                 1995                  $140,505
                                 1996                    154.587
                                 1997                    162,659
                                 1998                    193,831
                                Total                  $651.582

    We questioned $1 83,211 of the claimed consulting costs. Claimed consulting costs consist of
    the cost of the Preferred Provider ~ e t w o r kand
                                                     ~ consulting services as defined in FAR
    3 1.205-33 as those services rendered by persons who are members of a particular profession
    or possess a special skill and who are not officers or employees of the contractor. We
    questioned all costs for which OASYS was unable to provide consulting agreements or other
    adequate support.

                                             Consulting Costs

                         I Error Type
                                  --                           I Questioned I
                                                                 -
                          Different from invoice                  $    1,572
                          Insufficient Support                        82,822
                          Unsupported                                 98,s 17


    We questioned $12,220 of supplies costs. These costs included paper steno pads,
    penslpencils, staple removers and in one case a personal leather daytimer with leather
    conditioner. The allowance of costs under government contracts is subject to the tests of
    allocation and reasonableness. FAR 3 1.201-4 states that "a cost is allocable if it is assignable
    or chargeable to one or more cost objectives on the relative benefits received or other
    equitable relationship. A cost is allocable to a government contract if it (1) is incurred
    specifically for the contract (direct cost); (2) benefits both the contract and other work, and
                                -



 A substantial portion of the consulting costs claimed by OASYS was for PPO network access fees. It
should be noted that the claims audit indicated that while the Corporation is charged monthly for PPO
network access fees, the majority of its members do not participate in the PPO network.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

   can be distributed to them in reasonable portion to the benefits received (indirect);or (3) is
   necessary to the overall operation of the business, although a direct relationship to any
   particular cost objective cannot be shown (indirect)." FAR 3 1.201-3 also states that "a cost
   is reasonable if, in its nature and amount, it does not exceed that which would be incurred by
   a prudent person in the conduct of business. A contractor shall attach no presumption of
   reasonableness to the incurrence of such costs. The burden of proof shall be upon the
   contractor to establish that such costs are reasonable. What is reasonable depends on a
   variety of considerations and circumstances, jncluding: (1) whether it is the type of cost
   generally recognized as ordinary and necessary for the conduct of the contractor's business or
   the contract performance; (2) generally accepted sound business practices, arm's-length
   bargaining; and (3) the contractor's responsibilities to the government, other customers, the
   owners of the business, employees, and the public at large." Therefore, we questioned all
   unsupported supplies costs and costs claimed as direct that appeared to be necessary for the
   overall operation of the business. Such costs should be treated as indirect costs.

                                            Supplies Costs

                           Error Type                             Questioned
                           No support/Insufficient support          $ 8,868
                           Indirect Costs not applicable to            740
                           contract
                           Direct Cost to another Cost               2,6 12
                           Center
                           Totals                                   $12,220

d) We questioned $34,898 of contractJtemporary labor costs for which OASYS could not
   provide adequate support. FAR 3 1.201 (d) states that contractors are responsible for
   maintaining records to support claimed costs. FAR 52.215-2, which is incorporated into the
   contract by reference, states that "for cost reimbursement contracts, the Contracting Officer,
   or an authorized representative of the Contracting Officer, shall have the right to examine and
   audit all records and other evidence sufficient to reflect properly all costs claimed to have
   been incurred or anticipated to be incurred directly or indirectly in performance of the
   contract." In addition, we questioned all overtime premium claimed for those costs in
   accordance with the terms of the contract, which state that overtime premium is not allowed.

                                    Contract/Temporary Labor Costs

                           Error Type                         I   Questioned
                           Unsu~ n ~orted                          $19.567
                                                                   -
                       I                                                       1
                                                                      7 -
                                1                             I
                           No timesheet                              14.522
                       I   Overtime premium
                                                              I

                                                                        809    1
                       1   Total
                                                              I

                                                                   $34,898     1
e) We questioned the entire $44,073 of costs claimed for facilitieslrent. According to OASYS,
   these costs consisted of building lease payments, utilities, building maintenance and repairs
   expenses, leasehold improvement amortization, janitorial supplies, security service and other
   facilities expenses which OASYS allocated directly to the contract based on employee
   headcount. OASYS was unable to provide support for the costs accumulated in its facilities
   cost pool. FAR 52.215-2(f) states that "a contractor shall make available at its office at all


Page 21                                                                        ~CAA/AT~@~OPERS fl
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

   reasonable times the records, materials and other evidence for examination, audit or
   reproduction, until 3 years after final payment." We also noted that OASYS did not
   consistently allocate facilities costs to all cost centers. FAR 3 1.203(c) states that "once an
   appropriate base for distributing indirect costs has been accepted it should not be fragmented
   by removing individual elements." As a result of OASYS fragmenting the facilities
   allocation base, the Corporation could have been allocated more than its equitable allocation
   of allowable facilities costs.

f) We questioned the entire $4,908 of depreciation expense directly charged to the contract.
    FAR 3 1.205-1 1 states that normal depreciation is generally considered an allowable indirect
    cost if the costs are reasonable and allocable. OASYS allocated total depreciation expense on
    employee headcount. We were unable to verify the cost of the assets being depreciated to
    supporting documents such as purchase orders, vendor invoices and cancelled checks. Our
    physical observation of furniture and equipment revealed that these assets were not used
    exclusively for the Corporation's contract. OASYS could not confirm that these assets were
    purchased and used exclusively for the Corporation's contract. Therefore, depreciation
    expense should be an element of OASYS general overhead financial statement category.

g) OASYS claimed telephone/communication costs consisting of telephone charges for an
   "800" customer service number, telephone service cost, telephone repairs, printing, and
   mailing costs. We questioned $30,378 of these costs because OASYS could not provide
   adequate support or a reasonable determination for charging these costs directly to the
   contract. The allowance of costs under government contracts is subject to the tests of
   allocation and reasonableness. FAR 3 1.201-4 states that "a cost is allocable if it is assignable
   or chargeable to one or more cost objectives on the relative benefits received or other
   equitable relationship. A cost is allocable to a government contract if it (1) is incurred
   specifically for the contract (direct cost); (2) benefits both the contract and other work, and
   can be distributed to them in reasonable portion to the benefits received (indirect); or (3) is
   necessary to the overall operation of the business, although a direct relationship to any
   particular cost objective cannot be shown (indirect). " FAR 3 1.201-3 states that "a cost is
   reasonable if, in its nature and amount, it does not exceed that which would be incurred by a
   prudent person in the conduct of business. A contractor shall attach no presumption of
   reasonableness to the incurrence of such costs. The burden of proof shall be upon the
   contractor to establish that such costs are reasonable. What is reasonable depends upon a
   variety of considerations and circumstances, including (1) whether it is the type of cost
   generally recognized as ordinary and necessary for the conduct of the contractor's business or
   the contract performance; (2) generally accepted sound business practices, arm's-length
   bargaining; and (3) the contractor's responsibilities to the government, other customers, the
   owners of the business, employees, and the public at large." We questioned all unsupported
   telephone/communication costs and those costs claimed that were allocated directly to the
   contract but appeared to be for the necessary overall operation of the business. Such costs
   should be treated as indirect costs.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section II - Administrative Costs Review

                               TelephonelCommunicationCosts

                           Error Type                     Questioned
                           Unsupported                      $26,260
                           ~ndireEtcosts not
                                                               2'43 8
                           applicable to contract
                           d i e c t Costs to another
                                                                1,263
                           Cost Center
                           Unallowable Allocation                4 17
                           Total                             $30,378

   We questioned $10,789 of other non-payroll costs. Other non-payroll costs included travel,
   training, coffee/donuts/candy, books/manuals, microfiche and storage costs. OASYS could
   not provide adequate support or a reasonable determination for allocating these costs directly
   to the contract. In all instances, the allowance of costs under government contracts is subject
   to the tests of allocation and reasonableness. FAR 31.201-4 states that "a cost is allocable if
   it is assignable or chargeable to one or more cost objectives on the relative benefits received
   or other equitable relationship. A cost is allocable to a government contract if it (1) is
   incurred specifically for the contract (direct cost); (2) benefits both the contract and other
   work, and can be distributed to them in reasonable portion to the benefits received (indirect);
   or (3) is necessary to the overall operation of the business, although a direct relationship to
   any particular cost objective cannot be shown (indirect). " FAR 3 1.201-3 states that "a cost is
   reasonable if, in its nature and amount, it does not exceed that which would be incurred by a
   prudent person in the conduct of business. A contractor shall attach no presumption of
   reasonableness to the incurrence of such costs. The burden of proof shall be upon the
   contractor to establish that such costs are reasonable. What is reasonable depends upon a
   variety of considerations and circumstances, including- (1) whether it is the type of cost
   generally recognized as ordinary and necessary for the conduct of the contractor's business or
   the contract performance; (2) generally accepted sound business practices, arm's-length
   bargaining; and (3) the contractor's responsibilities to the government, other customers, the
   owners of the business, employees, and the public at large.''


                                    Other Non-Payroll Costs

                               ".
                       Error T v ~ e                            -
                                                        I Ouestioned          1
                       Costs with Insufficient
                                                            $ 9,175
                       Documentation or Missing Support
                       Indirect Costs not applicable to         I?<
                                                                 1.J-J
                       contract
                       Direct Costs to another Cost            ..       --
                       Center
                       Indirect Costs-Unallowable       I
                                                                 302          1
                       Total                                $10,789


    We questioned all $19,191 of the 1994 non-payroll costs billed to the Corporation. FAR
    52.215-2(f) states that "a contractor shall make available at its office at all reasonable times
    the records, materials and other evidence for examination, audit or reproduction, until 3 years


Page 23                                                                                           fl
                                                                          ~ ~ T P H O ~ O O P E R S
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

     after final payment under the contract." OASYS was unable to provide any supporting
     records for the 1994 non-payroll costs.

3)   We questioned $727,911 of other unsupported non-payroll costs. These costs are related to
     24 invoices for which OASYS was unable to provide sufficient, competent, and relevant
     evidence in a manner that was auditable. FAR 3 1.201 (d) states that contractors are
     responsible for accounting for costs appropriately and maintaining records to support claimed
     costs. FAR 52.215-2, which is incorporated into the contract by reference, states that "for
     cost reimbursement contracts, the Contracting Officer, or an authorized representative of the
     Contracting Officer, shall have the right to examine and audit all records and other evidence
     sufficient to reflect properly all costs claimed to have been incurred or anticipated to be
     incurred directly or indirectly in performance of the contract."

k) We questioned the entire $328,962 of claimed overhead costs. We noted that overhead was
   being applied at a flat rate of either 15 percent or 16.5 percent. We believe that OASYS uses
   an estimated rate to apply overhead because it is unable to determine its actual rate. First,
   OASYS accounting personnel have no training in and a very limited understanding of FAR or
   CAS. Consequently, OASYS is not fully aware of its responsibilities to the Corporation
   under the contract. Second, OASYS has no established written guidance concerning the
   accumulation and allocation of overhead costs. OASYS also does not have any written
   policies and procedures in place for identifying direct, indirect, and unallowable costs. As a
   result, OASYS increased the risk that overhead will not be allocated in a consistent and
   accurate manner. Finally, OASYS does not make proper use of cost centers. Many of
   OASYS cost centers are designed to track costs by either employee or functional area instead
   of final cost objective (i.e., a contract or an internal service center). As a result, there are
   numerous cost centers not associated with a final cost objective, causing confusion as to the
   true make-up of total overhead costs. FAR 3 1.203(b) states that "indirect costs shall be
   accumulated by logical cost groupings with due consideration of the reasons for incurring
   such costs. Each grouping should be determined so as to permit distribution of the grouping
   on the basis of the benefits accruing to the several cost objectives. Commonly,
   manufacturing overhead, selling expenses, and general and administrative (G&A) expenses
   are separately grouped. Similarly, the particular case may require subdivision of these
   groupings; e.g., building occupancy costs might be separable from those of personnel
   administration within the manufacturing overhead group. This necessitates selecting a
   distribution base common to all cost objectives to which the grouping is to be allocated. The
   base should be selected so as to permit allocation of the grouping on the basis of the benefits
   accruing to the several cost objectives. When substantially the same results can be achieved
   through less precise methods, the number and composition of cost groupings should be
   governed by practical considerations and should not unduly complicate the allocation."
   Without the ability to group its overhead costs into logical cost groupings and to reasonably
   allocate its overhead costs in accordance with FAR, OASYS is unable to comply with the
   terms of the contract. As a result, the Corporation cannot be assured that is receiving an
   equitable allocation of overhead costs.

                                         Overhead Costs

             FY 1995        FY 1996         FY 1997        FY 1998         Total
             $74,229        $77,958         $75,437        $101,338       $328,962
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

   We questioned all costs claimed for claims processing. OASYS charged the Corporation
   $0.35 per claim as a processing charge. OASYS could not provide any documentation for
   this $0.35 per claim charge. FAR 52.216-7(b)(i) states that "for the purpose of reimbursing
   allowable costs, the term 'costs' includes only (1) those recorded costs that, at the time of the
   request for reimbursement, the Contractor has paid by cash, check, or other form of actual
   payment for items or services purchased directly for the contract; (2) when the Contractor is
   not delinquent in paying costs of contract performance in the ordinary course of business,
   costs incurred but not necessarily paid, for materials, direct labor, direct travel, other direct
   costs, properly allocable and allowable indirect costs, as shown in the records maintained by
   the Contractor for purposes of obtaining reimbursement under government contracts; and
   (3) the amount of progress and other payments that have been made by check, cash, or other
   form of payment to Contractor's subcontractors under similar costs standards."

                                    Claims Processing Charges

         Fiscal Year              Fee        Overhead          Taxes           Total
         1995                 $     -          $     -           $     -      $
         1996                   2,163             324              33           2,520
         1997                  11,382            1,707            173          13,262
         1998                  11,951            1,793            180          13,924
         Totals               $25,496          $3,824            $386         $29,706

   We questioned $126,596 of costs claimed on four invoices for which OASYS could provide
   no support. OASYS representatives were unable to explain why the invoices were generated.
   In addition, we questioned $5,011 that was overbilled. FAR 3 1.201 (d) states that contractors
   are responsible for maintaining records to support claimed costs. FAR 52.215-2, which is
   incorporated into the contract by reference, states that "for cost reimbursement contracts, the
   Contracting Officer, or an authorized representative of the Contracting Officer, shall have the
   right to examine and audit all records and other evidence sufficient to reflect properly all
   costs claimed to have been incurred or anticipated to be incurred directly or indirectly in
   performance of the contract."

Compliance Issues

During our review of the administrative invoices, we noted the following non-compliances with
FAR, CAS and the contract terms.

19. OASYS is not in compliance with FAR subpart 42.7 and contract clause 52.2 16-7(d) -
    Indirect Cost Rates.

    FAR subpart 42.7 prescribes policies and procedures for establishing billing and final indirect
    cost rates. The contract also contained FAR clause 52.216-7, which required OASYS to
    submit an adequate final indirect proposal to the contracting officer within the six-month
    period following the expiration of each of its fiscal years. OASYS did not submit final
    indirect cost rates for any of its fiscal years.

    We recommend that the Corporation require OASYS to comply with these regulations by
    submitting certified final indirect cost rates for each of its fiscal years.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

20. OASYS is not in compliance with CAS 401-Consistency in Estimating, Accumulating and
    Reporting Costs.

   CAS 401 requires that practices used in estimating costs in pricing a proposal be consistent
   with cost accounting practices used in accumulating and reporting costs. OASYS' proposal
   identified utilization review costs, conversion policy fee costs, and PPO access costs as pass-
   through costs for which overhead would not be charged. However, these costs were claimed
   as other direct costs for which overhead was applied.

   Throughout the term of the contract, OASYS submitted claimed costs in aggregate. OASYS
   proposed costs to perform this contract by element, i.e. labor, communication, depreciation,
   and overhead. On its standard form 1411, Contract Pricing Proposal Cover Sheet, OASY S
   stated that they were a CAS covered contractor. Therefore, as per CAS 40 1, claims should
   have been submitted to the Corporation consistent with their proposal method. Furthermore,
   the COTR should not have accepted for payment claims that were submitted not in
   compliance with CAS 401.

21. OASYS is not in compliance with CAS 405 - Accounting for Unallowable Costs.

   CAS 405 "facilitates the negotiation, audit, administration and settlement of contracts by
   establishing guidelines covering identification of costs specifically described as unallowable,
   at the time such costs first become defined or authoritatively designated as unallowable.
   Costs expressly unallowable or mutually agreed to be unallowable, including costs mutually
   agreed to be unallowable directly associated costs, shall be identified and excluded from any
   billing, claim or proposal applicable to a Government contract." OASYS does not segregate
   or in any way identify unallowable costs in its underlying accounting records. As a result,
   unallowable costs were included in its claims to the Corporation, which is not in compliance
   with CAS 405.

22. OASYS is not in compliance with CAS 41 8 - Allocation of Direct and Indirect Costs.

    CAS 418 requires that a business unit have a written statement of accounting policies and
    practices for classifying costs as direct or indirect which shall be consistently applied.
    Indirect costs should be accumulated in indirect costs pools that are homogeneous, and
    pooled costs should be allocated to cost objectives in reasonable proportion to the beneficial
    or causal relationship of the pooled costs to cost objectives. OASYS does not have written
    policies in place regarding the classification of direct and indirect costs. OASYS' established
    practices did not accumulate indirect costs in homogeneous pools, nor were these pooled
    costs allocated to cost objectives in a method that showed a beneficial or causal relationship
    of indirect costs to cost objectives. Therefore, OASYS is not in compliance with CAS 41 8.

23. OASYS did not have records to support administrative costs claimed.

    OASYS does not retain accounting records for audit purposes as required by FAR 4.702 and
    52.2 15-2(f). OASYS was unable to provide supporting records for any costs incurred in 1994
    and did not have timesheets to support any of the direct labor charges from contract inception
    through September 30, 1998. OASYS also did not have records to support its allocation of
    fringe benefits, allocation of depreciation costs, allocation of telephone expenses, adequate
    support for consulting expenses and other miscellaneous non-payroll expenses. Records were
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

   not available to support costs incurred for four invoices selected for testing. Furthermore
   OASYS was unable to provide sufficient, competent, and relevant evidence for 24 invoices in
   a manner that was auditable. FAR 52.21 5-2(f) states that "a contractor shall make available
   at its office at all reasonable times the records, materials and other evidence for examination,
   audit or reproduction, until 3 years after final payment under the contract."

   We recommend that OASYS implement policies and procedures that address retention of
   records for government contracts. These policies and procedures should include guidance on
   the retention of both hard and soft copy records.

Control Weaknesses

We also noted the following management control weaknesses.

24. OASYS has no formal policies and procedures related to its cost accounting practices.

    We requested that OASYS provide us with its policies and procedures related to accounting
    for government contracting. According to OASYS' accounting manager, no policies and
    procedures exist that describe its cost accounting practices. The lack of comprehensive
    policies and procedures could result in inconsistent identification and exclusion of
    unallowable costs, and inconsistent identification of direct costs versus indirect costs.
    Furthermore, turnover in accounting personnel could cause inconsistent application of
    undocumented policies and procedures. The lack of written policies and procedures led to
    unallowable and unsupported costs being billed to the Corporation.

    Best practices suggest that organizations maintain formal written policies and procedures
    providing guidance on every major work function. Written policies and procedures ensure
    those delegated duties and responsibilities are formally documented and communicated to
    personnel.

    We recommend that the Corporation require OASYS to establish and maintain written
    government accounting policies and procedures in accordance with FAR. These procedures
    should address, at a minimum, charging, directly or indirectly allowable costs in billings,
    claims or proposals to government contracts in accordance with FAR 3 1.2 and CAS. They
    should also address the classification of costs as allowable or unallowable in accordance with
    FAR and contract terms, and the proper allocation of indirect and other direct costs to final
    cost objectives in accordance with FAR and CAS.

25. OASYS does not have controls in place to ensure the proper recording of labor to cost
    obiectives.

    Labor costs accounted for approximately 25 percent of the administrative costs billed to the
    Corporation. Unlike other cost items, labor is not supported by third party documentation
    such as receipts and invoices. A contractor's personnel have complete control over all
    supporting documentation relating to labor costs. Therefore, the risk associated with the
    accurate recording, distribution, and payment of labor costs is significant.

    Because of this risk, a contractor's labor system should have: (1) an effective method to
    monitor the overall effectiveness and integrity of its timekeepingllabor system; (2) effective


Page 27                                                                   P p I ~ ~ p ~ o u @~ a o ~ ~ ~ s
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

   authorization procedures to facilitate the accumulation and recording of labor costs (including
   overtime) to cost objectives; and (3) effective timekeeping procedures and labor cost
   accounting procedures. As noted above, OASYS has no formal policies and procedures
   related to its cost accounting practices. Furthermore, OASYS' company handbook does not
   provide any written instructions to its employees on the correct recording of time by project
   numbers, contract number or name, or other identifiers for a particular cost objective. As a
   result, OASYS was not able to support any of its labor costs with supporting timekeeping
   documentation. Further, OASYS billed the Corporation for contractually unallowable
   overtime premium.

    We recommend that the Corporation require that OASYS adopt adequate policies and
    procedures relating to labor charging, including: (1) monitoring the overall effectiveness and
    integrity of its timekeepingllabor system; (2) authorization procedures to facilitate the
    accumulation and recording of labor costs to cost objectives; and (3) timekeeping procedures
    and labor cost accounting procedures. OASYS should also implement a formal training
    program to instruct its employees in the proper use of timesheets and assure that all
    employees are aware of the importance of time charging.

26. OASYS does not adiust submissions for final overhead rates that differ from the billed
    overhead rates.

    OASYS billed the Corporation for overhead costs using an estimated rate that was based on
    the cost proposal submitted to the Corporation in 1994. OASYS did not submit adjustment
    vouchers after each contract year-end for differences between actual and billed indirect rates
    nor did they maintain records to support its overhead rates. Therefore, we were unable to
    determine if OASYS' actual overhead rate for each contract year was different from its
    estimated rate or if the Corporation paid for unallowable costs included in OASYS' overhead
    cost pool.

    We recommend that the Corporation require that OASYS put into place policies and
    procedures that provide for the segregation of cost by year so that rate adjustments can be
    easily made and the rates used can be identified. These procedures should also require that
    claimed indirect costs be reconciled with actual costs as recorded in its books and records.
    Further, the policies should require the retention of sufficient documentation so that auditors
    will be able to assess the reasonableness of OASYS' interpretations of allowability.

27. OASYS accounting staff has no training in FAR or CAS requirements.

    We reviewed the job descriptions for the accounting personnel and noted that knowledge of
    government contract accounting was not required. We also noted that OASYS does not
    provide such training to its employees. A well-trained staff leads to accurate submissions to
    the government. The lack of knowledge and understanding of FAR and CAS requirements
    by OASYS accounting staff led to unallowable and unsupported direct and indirect costs
    being billed to the Corporation.

    We recommend that the Corporation require that OASYS establish an employee-training
    program. This program should inform employees of the special requirements that apply
    when a business contracts with the government. The training should at a minimum instruct
    personnel in the certification requirements and potential penalties associated with



Page 28                                                                   ~UWA@WO~~~:~OPERS       a
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I1 - Administrative Costs Review

   submissions. Special training should be provided in preparation and submission of billings,
   claims and proposals.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I11 - Computer Systems Review

Summary of Work Performed

OASY S maintains three main systems for processing and recording data related to the contract
with the Corporation. These system include: (1) Health Care Claims Processing System (HCPS),
the claims processing system; (2) the financial accounting application; and (3) MACESS, the
imaging and workflow application. Our review of these systems provided us with an opportunity
to understand and evaluate the control environment surrounding the processing of data related to
the Corporation. See Appendix A for additional details on our scope and methodology.


Findings and Recommendations

Control Weaknesses

During our systems review, we identified the following control weaknesses.
    OASYS does not have a complete set of policies and procedures governing systems security
    administration and monitoring.
    Upon beginning our fieldwork at OASYS, we requested written security administration and
    monitoring policies and procedures to assist in gaining an understanding of the systems
    control environment. However, according to the Director of Information Technology, written
    policies and procedures only exist for: (1) access granting and removal procedures for the
    core HCPS claims processing system; and (2) backup procedures for the core HCPS claims
    processing system. No other written policies and procedures were provided.

    Best practices suggest that organizations maintain formal written policies and procedures for
    all critical business activities. Comprehensive security policies and procedures are the
    foundation of an entity's security control structure and assist in ensuring senior management's
    commitment to addressing security risks. Security policies define high-level overall goals of
    security administration and monitoring and should be set by senior management. Security
    procedures provide the details necessary to implement the stated policies and may be
    designed by members of the information systems group.

    The lack of comprehensive security administration and monitoring policies and procedures
    could result in inconsistent and possible unauthorized use of the claims processing systems
    without detection by OASYS personnel. Furthermore, turnover in information systems
    personnel could cause inconsistent application of any undocumented policies and procedures.

    We recommend that OASYS develop comprehensive security administration and monitoring
    policies and procedures to cover all claims processing systems and environments. At a
    minimum, the policies and procedures should define:

          Responsibilities of platform and application security personnel.
          Physical security standards.
          Events and conditions to be monitored, both for applications and platforms.
          Maintenance of temporary user accounts.
          Who is allowed to use network resources.
          Who is authorized to grant access.
          Who may have system administration privileges.
          What are the users' rights and responsibilities.


Page 30                                                                   ~WPHOUS~@~OPERS        a
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section I11 - Computer Systems Review

    0   What should be done with sensitive information.
    0   Acceptable user account, password, and system parameter settings.
        Backup and recovery for all platforms.
        Criteria for deciding if a user or event should 'be audited.
        Security monitoring and auditing, including the frequency of monitoring.
        A method for controlling the granting and revoking of access to all applications and
        systems.

    We also recommend that the information technology group monitor and periodically reassess
    security administration and monitoring to ensure that policies and procedures continue to be
    appropriate and address current security risks.

    OASYS does not have an up-to-date business continuity plan in place.

    We noted that OASYS does not have a current, tested, or applicable business continuity plan.
    According to the Director of Information Technology, the current plan predates OASYS'
    separation from Acordia. It has not been revised to reflect the current systems environment
    and therefore is no longer entirely applicable.

    Best practices suggest that organizations maintain and periodically test a business continuity
    plan. These plans are designed to ensure that the organization is able to recover from
    computer processing and business interruptions, and continue to meet contractual obligations
    in case of an interruption.

    We recommend that OASYS update the business continuity plan to reflect the processing
    environment in place since its separation from Acordia. Additionally, we recommend that
    OASYS augment certain aspects of the plan to incorporate more details. For example, the
    plan should include topics such as computer system installation and network configuration
    requirements. Such enhancements would help to ensure the completeness of OASYS'
    business continuity plan. We also recommend that OASYS define a schedule for periodically
    testing and updating the system to ensure that it remains up-to-date with the current
    processing environment.

30. OASYS does not have adeauate procedures in place to ensure the security of its data center.

    During our inspection of data center access, environmental and operational controls we noted
    the following:

           The keypad lock does not adequately control physical access to the OASYS' shared data
           center. Employees of OASYS' tenant4 openly share the access pin number aloud in an
           open office environment.
           OASYS does not adequately monitor its tenant's access to the data center. No
           procedures are in place to ensure that an authorized person escorts a tenant employee
           while in the data center.
           There was no evidence that the fire suppression system in the data center had been
           inspected. Thus, we could not verify that the system was fully operational.

4
 OASYS sublets space within its facility to a tenant. The tenant space is not separate from OASYS. There
are no internal walls except within the management suite and conference rooms. The rest of the space,
including that used by the tenant, is divided using shoulder high moveable partitions.


Page 3 1                                                                     ~WNPH@~OPERS
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section 111 - Computer Systems Review

        The local area network (LAN) backup tapes that include backups for the general ledger
        and MACESS claims imaging application are not rotated off site. Rotation of backup
        tapes to an off-site location is critical to ensure that in the event of a disaster to the data
        center, OASYS can restore and retrieve key accounting and claims information.

    Weak physical access controls increase the risk that the Corporation's data could be
    inappropriately accessed or manipulated. Additionally, inadequate maintenance of fire
    suppression systems, and the lack of off-site rotation for LAN backup tapes increase the risk
    of data loss.

    We recommend that OASYS strengthen its controls surrounding physical access to the data.
    This could involve making the keypad pin number available only to appropriate employees
    and tenant employees. In addition, OASYS should require all tenant employees to be
    escorted while inside the data center. We also recommend that OASYS hire a maintenance
    company to periodically inspect the fire suppression system per manufacturer requirements.
    This should occur 2 to 4 times per year. Finally, we recommend that OASYS operations
    personnel rotate the LAN backup tapes off-site on a daily basis.

3 1. Certain LAN environment logical security settings are not adequately or consistently applied.

    We performed a review of the LAN environment using the KANE Security Analyst software
    tool, and a review of the DEC Alpha - VMS system by analyzing system report listings. We
    noted the following:

    Novell
       27 user accounts may have more that one connection at a time. While concurrent
       connections are sometimes necessary for system administrators, only five such people
       exist on the Novell platform.
       11 accounts had easily guessed passwords.
       One user had no password.
       3 1 users are not required to change their password every 30 days.

    VMS
      Eight users are not required to change their passwords every 30 days.
      All user accounts allow dial-in access.
      Users are only locked out of the system for five minutes after five invalid login attempts
      in five minutes.

    The absence of consistently applied and adequate security controls increases the risk of
    inappropriate access to the OASYS processing environment, thereby increasing the risk of
    inappropriate access to data related to the Corporation.

    We recommend that OASYS bring non-conforming user accounts back in line with its
    standard system settings. These settings require passwords of a six character minimum that
    must be changed every 30 days and allow users only one concurrent connection.
    Additionally, we recommend that OASYS: (1) educate users to select proper passwords; (2)
    remove unnecessary dial-in availability from user accounts; and (3) cause user accounts to be
    locked out for at least one day following five invalid login attempts.




Page 32                                                                       ~ ~ T P H O ~ ~ O P E &     #
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section III - Computer Systems Review

32. Several claims processors have excessive dollar amount authorization limits within OASYS'
    core claims processing system.

   During our review, we noted that multiple users within the HCPS system could approve high
   dollar claims. The dollar amount authorization limits for all users (supervisors and claims
   processors) and corresponding number of individuals assigned to those limits, which varies
   by type of claim, is as follows:




    We find the dollar amount authorization limits within OASYS claims processing system to be
    excessive. This condition increases both the potential magnitude of processing errors and the
    risk of fraud. In our experience with other health care administrators, we have found that
    non-supervisory claims processors normally have dollar amount authorization limits of
    $1,000. Additionally, a member of senior management must normally approve claims over
    $10,000.

    During our four-week on-site review, we noted that OASYS operations management was
    usually off-site and, therefore unavailable to answer questions and provide explanations for
    identified concerns. As a result, the culture present at OASYS seemed to us to be one of
    cc
       employee empowerment". By virtue of being given unusually high authorization levels,
    staff level employees are trusted with significant decision-making power. However, the great
    number of errors that we identified lead us to believe that the staff lacks the expertise
    necessary to warrant such autonomy.

    We recommend that OASYS reevaluate its current claims authorization hierarchy and reduce
    its authorization limits to conform to industry norms.

33. Inadeciuate segregation of duties exists within both OASYS' core claims vrocessing systems
    and its accounting system.

    During our review of the HCPS claims processing system and the accounting system we
    noted the following conditions:

        One case where a HCPS user was capable of creating and modifying member data, and
        approving claims up to $100,000.
        The accounts payable clerk has change access within the accounting system to the
        accounts payable, accounts receivable, and other financial areas of the system. Change
        access means that the user can change the underlying data in the accounting records.

    We find these access combinations to be inappropriate as they allow a single user to commit
    and conceal acts of fraud.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Section 111- Computer Systems Review

   No single employee should have access to an entire transactional cycle. Thus, we
   recommend that OASYS reduce the access capabilities of the above mentioned users to
   include only what is necessary to perform the duties associated with their positions.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix A - Detailed Objectives and Methodology

Objectives

The purpose of our audit of OASYS was to:

   Evaluate OASYS' performance in processing claims against standards for accuracy,
   timeliness, quality of operation and service, compliance with contractual performance
   standards, and recommend improvements.
   Determine if administrative costs claimed are contractually allowable or were incurred
   specifically for the contract effort with adequate support and charges in accordance with
   OASYS' cost accounting system, contract terms, applicable laws and regulations including
   FAR, and applicable cost accounting standards.
   Determine if OASYS complied with contract terms, and if OASYS' management system of
   internal controls relating to administrative costs were adequate.
   Assess the controls surrounding OASYS' computer systems and determine whether a reliable
   and secure environment is in place for the processing of data related to the Corporation's
   contract.

Methodology

I. Health Care Claims Review

Sampling Methodology

We requested and received from OASYS a data download of claims for services provided during
the period of October 1, 1994 to September 30, 1998. The download that was provided to us
consisted of claims processed from October 1, 1994 to December 3 1, 1998. We attempted to tie
the download to the invoices OASYS had submitted for claims paid during that time frame. We
found a 0.02 percent difference and accepted the download as being statistically viable. We
selected a sample from this download of 200 claims per year using PwC's proprietary software
system.

We utilized a stratified monetary sampling technique. This technique allowed us to select claims
that were representative of the Corporation's dollar expenditures rather than OASYS' total
transactions. In this way, the sample is representative of the Corporation's actual claims paid.

The procedures performed were:

    Define the sample parameters.
    Process the download through our automated statistical sampling systems in order to stratify
    claims paid by the amount of payment.

Determining the Samvle

The sampling method utilized was optimum allocation, which maximizes the accuracy and
economy of sampling. Unlike simple binomial random sampling, this sampling method is based
on stratifying the dollar values of the paid claims in the total claims populations. The numbers of
sample claims drawn from each stratum depends upon the variance (a measure of homogeneity)
of the dollar amounts in that stratum of total claims, i.e., fewer sample claims are needed from
homogenous strata and more from heterogeneous strata.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix A - Detailed Objectives and Methodology


We selected a sample of 800 claims (200 from each year) to re-adjudicate. The value of the
sample claims was $2,844,188. This sample was selected from a data download, provided by
OASYS, of claims processed and paid for under the contract. The total value of the download
was $1 7,641,855.

Evaluation of a Stratified Random Sample of Claims

We evaluated the reasonableness of the sample selected before it was utilized in testing. In
selecting our sample, we used proprietary software to first stratify the population of claim
payments by the dollar value of the claims. We then sampled from each stratum. The stratified
random sample is preferred over a straight random sample. Through stratified sample, we ensure
that we audit an adequate number of claims in each stratum, and thereby have an appropriate
representation of larger claims. These larger claims are fewer in number, but account for a
significant portion of total claims expense.

Proiecting the Audit Results to the Total Claims Population

After the re-adjudication, we prepared calculations separately for claims with financial and
administrative errors.

A list of the claims with either overpayments or underpayments was compiled from the audit
sheets. For each claim, the proportion of the claim that has been paid incorrectly was recorded.
The column of proportions was totaled and divided by the number of claims in the sample to give
the average proportion of error found in the sample. This proportion was then multiplied by the
total dollar value of all paid claims to produce an estimate of dollar error. The sample size
resulted in a 95 percent confidence level, with a three percent precision and a five percent error
rate. We then calculated the upper error limit at the 95 percent level of confidence from statistical
tables prepared for the purpose. Averages were weighted for stratum size and for error types.

Health Care Claims Re-adiudication

While on-site, we used OASYS' claims processing system to re-adjudicate the 800 sample
claims. The purpose of the re-adjudication was to determine whether:

    The claimant was eligible for benefits on the date(s) of service.
    The claim was coded with correct diagnosis and procedure codes before processing.
    An appropriate investigation for COB was completed before the claim was paid.
    Duplicate claims were not paid.
    The benefits paid were covered by the plan, and conversely, the benefits denied were not
    covered by the plan.
    The required pre-certification was obtained by the member and the number of days approved
    was consistent with the number of days billed and paid.
    The applicable penalties were applied for lack of pre-certifying all inpatient stays, and
    outpatient procedures greater than $500 dollars.
    Claim forms were completed and signed by appropriate parties.
    The documentation was sufficient to support the payment of the claim.
    The paid amount agreed with the "claim payment register" and was correctly charged to the
    Corporation.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix A - Detailed Objectives and Methodology

   The services received were medically necessary and the provider billing was appropriate for
   the medical condition.

Operations Review of Health Care Claims Processing

In addition to a claims re-adjudication, we performed an operational review to gain an
understanding of the controls surrounding the claims processing environment. Procedures
performed during the operations review included:

   Interviewing key management and claims personnel involved in processing and paying
   medical claims for the Corporation.
   Reviewing policies and procedures and the work flow through OASYS' claim office.
   Reviewing internal audit report findings.
   Reviewing personnel policies, staffing ratios, claims processing standards, performance
   evaluation procedures, orientation programs for new hires, and ongoing training programs.
   Reviewing COB procedures, including sources of COB information and methods of
   coordination.
   Reviewing the use and transmission of pre-certification information.

11. Administrative Costs Review

In addition to a health care claims review, we reviewed the administrative costs billed to the
Corporation during the contract period. The purpose of this review was to test the allowability of
administrative costs claimed by OASYS under the contract and its compliance with applicable
laws and regulations. We performed the following procedures:

    Obtained a detail breakdown of billed costs from OASY S.
    Matched the labor charges from the invoice to the general ledger.
    Matched non-payroll costs billed to general ledgers to determine if the charges were
    supported by adequate documentation such as invoices, canceled checks, and purchase
    orders.
    Verified if these costs were allowable in accordance with contract terms and FAR.
    Reviewed methodology for allocating indirect costs.

Although the scope of our work covered the historical period of October 1, 1994 through
September 30, 1998, our review considered only the management and system controls in place at
OASYS during the period of our fieldwork. In order to gain an understanding of the management
controls currently in place at OASYS, we:

    Conducted interviews with key accounting personnel involved in recording administrative
    costs.
    Reviewed any written policies and procedures.
    Physically observed present internal controls.
    Reviewed other internallexternal audit reports.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix A - Detailed Objectives and Methodology

111. Computer Systems Review

While on-site, we also conducted interviews and performed tests of the systems controls to
determine:

    Physical site protection mechanisms in place to prevent unauthorized access and harmful
    conditions.
    The restriction and monitoring of logical access to system files, data files, program files, and
    transactions.
    Control of access to claims transactions, databases, and processing functions by OASYS
    personnel.
    The systems development methodology used by OASYS to provide a structured approach to
    development and implementation activities.
    Controls surrounding modifications to existing systems and application software.
    Operating procedures and techniques used to assure that the computer facility provides a
    reliable processing environment.
    The backup and recovery procedures available to both preserve the integrity of programs and
    data files, and to ensure that information processing capabilities can be resumed after an
    unanticipated interruption.
                                                 EPSTEINBECKER
                                                             & GREEN,P.C.
                                                         ATTORNEYS A T L A W
                                                          1227     25% STREET. N.W.

       Z S O PARK A E N U E                           WASHINGTON. D.C. 20037-1 156'                M EMBARUDCRO CLKFER
 NEWYURK. NCWYORK I 0 1 7X-CUl77'                                                              S W FRANCISCO. CALIFORNIA 0 4 1 1 I
            ( 2 12) 3 5 1 - 4 5 0 0                           12021 8 6 l   a900
                                                                                                         ( 4 IS1 3 Q 6 - 3 5 0 0
                                                           FAX: ( 2 0 2 1 2 9 6 - 2 8 8 2




      ONE U H D M I A K SOUARE                                                                2 4 0 a souni OWE HENWAY. sum I w
STAMFORD. CONN-           W Q O I. 2 6 0 I   '                       DIRECT:
                                                                                                    MUHI, FLORIDA 3 3 1 3 3 - 3 1 4 1
         (2031 3 4 6 - 3 7 3 7                                                                           ~3058 1 S 6 - I lo0
                                                               2 0 2 - 8 8 1 - 1 887

       ONE RNERFROEIT PL*U                                                                       s I o MING STREET. sum 3 0 I
    NEWARK. NW JERSEY 0 7 102'                                                                 AWXANORU. VIRGINIA 2 2 3 1 4 - 3 132'
         ( 0 7 3 1 842.1 O W                                                                            (7031 6 6 4 - 1 2 0 4

         75 STATE SIRLET                                                                     I I I SOUTH C*LWRT JTRELI. sum 2 7 0 0
  BOSTON. HLSUCnUSm 0 2 100'
         (6 1 71 3 4 2 . 4 0 0 0
                                                        November 15,1999                           E A L l l W R k MARVIANO 2 1202'
                                                                                                         (4 101 3 6 5 - 5 2 7 5

                                                                                                'P.c. N F U mRK. W*SHlN-N. O.C.
                                                                                                              ~ V T . NW JER~C(
                                                                                               C O N N ~ ~ ~ VIRGINIA.
                                                                                            M*5SACHUSEm. MARIlANO AND TDUS ONLY




      VIA FASClMlLE AND UPS

      Ms. Jo-Ann Swift
      PriceWaterhouseCoopers, LLP.
      1616 N. Fort Myer Drive
      Arlington, VA 22209-3195


                                      Re: First Preliminary Comments on Draft Audit
                                          Report o n OASYS Contract No. 95-743-1005

      Dear Ms. Swift

             We are counsel to Outsourced Administrative Systems, Inc. ("OASYS"). Starting
      on October 15, 1999, and for several days thereafter, OASYS received installments of a
      draft audit report relating to its contract to provide administrative services for the
      Corporation for National and Community Service ("Corporation") health care benefits
      program. The Corporation provides health care benefits to certain members on a self-
      insured basis. OASYS performs administrative services, subscriber utilization review
      services, and program management assistance. The audit was conducted by your firm,
      PriceWaterhouseCoopers ("PWC" or "the auditorsn), over the course of the summer,
      including fieldwork at OASYS's offices during three weeks starting in midJuly 1999.
      The audit covers health care claims, administrative costs, and the computer systems
      review.

             Your office has sought comments on the draft audit b y November 15, 1999. On
      the evening of October 27, 1999, we were retained by OASYS to assist in responding to
      the draft audit report. By letter dated October 29, 1999 to the Office of the Inspector
      General ("OIG"), we requested an extension of time to submit our comments. We noted
      that the Office of Personnel Management ("OPM"), which otherwise monopolizes .
      government contract health care administration audits, gives contractors at least three




                       Page 39
Ms. Jo-Ann Swift
November 15,1999
Page 2



months to respond to draft findings. By letter received on November 5, 1999, OIG
rejected any extension. By letter dated November 9, 1999, however, OIG forwarded to
counsel for OASYS some key back-up documentation on roughly 16 of the 40 invoices
that were submitted and paid under the contract. With 'this information on the
administrative costs, OASYS was able for the first time to intelligently investigate the
draft audit report findings. Neither OIG nor the Contracting Officer have pre-authorized
any overtime costs or administrative, consulting or legal expenses to prepare the
response, although obviously the work is allowable, reasonable and necessary.

        As we noted in our October 29, 1999 letter to OIG, it is simply not possible to
prepare an adequate response in the time period that has been allotted, especially
given the withholding of pertinent information until November 9, 1999. This information
had been sought as long 'ago as the exittelephone conference. OASYS would have a
tough job even if PWC had done a complete'.review during the course of its audit. Since
PWC failed to perform even a basic audit analysis of a large part of the available cost
records, the burden on OASYS is exponentially more difficult. The PWC audit is simply
fragmentary and at certain points contains highly inaccurate conclusions. And it took
three PWC auditors three full-time weeks (nine "man weeks" of effort) to do the initial
audit fieldwork. It stands to reason it would take time to respond to that level of effort.
We respectfully appeal to PWC and OIG to allow OASYS suficient time to perform the
necessary work to finish the project.

       With these caveats in mind, OASYS shall share with you its preliminary concerns
regarding the draft audit report. To facilitate your reviews, we have organized,these
comments in the same order as presented in the draft ari'dit report in the summary of
findings.

1.     PWC claims there are $3,818,399 of extrapolated overpayment monetary
                                                                            PwC disagrees.
       errors and $1,349,652 of extraoolated underoavrnent monetarv errors. See page 68.

       OASYS is still reviewing the questioned subset of the 800 health care claims that
were "re-adjudicated" for the period October 1, 1994 through September 30, 1998. As
you know, OASYS is the successor-in-interest to AdminaStar Solutions and Acordia
Healthcare Solutions, Inc. (both affiliates of Anthem) and must coordinate its review with
those entities. The review of re-adjudicated claims also requires OASYS to check out
PWC's own errors, to verify data with providers, and run down documentation. It is
simply not possible to complete these tasks in the unreasonably short period of time
that has been allotted as well as perform the day-to-day contractual duties.

        As an example of OASYS1sefforts, OASYS is analyzing the 49 "missing" sample
items. OASYS has determined that 15 of these claim items occurred during the
transition of coritractual duties from Blue Cross and Blue Shield of the National Capital
Area to AdminaStar Solutions and eventually OASYS. At that time the Corporation
undertook the responsibility to pay certain claims directly. See Attachment I.OASYS
may have reviewed the claims (which would explain why there is a computer record) but



       Page 40
Ms. Jo-Ann Swift
November 15, 1.999
Page 3



the hard copies may be in the Corporation's hands. The check number on the claim
certainly is not an OASYS number. The record suggests that the Corporation issued
these checks directly to the members. In short, apparently they are not missing OASYS
claims, nor do they represent errors.

       In addition, OASYS has found 23 of the heretofore "missing" claims. See
Attachment 2 at p.11. Copies of these claim documents are being forwarded from
OASYS by separate cover for your review. This reduces the number of missing claims
to 11 after adjusting for the transition claims and found documents. This, of course, also
changes the extrapolation.

       OASYS has prepared spreadsheet charts analyzing each of the alleged
categories of claim errors'. See generally Attachment 2. These attachments are "draft"
versions of the charts. They are about 90%:complete. The final charts will be supplied
to you when they are complete. We will then supplement this response to give you our
analysis of the data. OASYS also will respond to the significant alleged overpayment
and underpayment errors in the course of analyzing the audit findings for items 3
through 9 infra. As to the substantive response to PWC1s extrapolation, please be
advised that OASYS submits that it is in complete compliance with all material
contractual obligations.

       For the purpose of this finding, it suffices to note that, if the underlying .analysis
was in error and the data available was erroneously interpreted, then the extrapolated
errors will be inaccurate.

2.     PWC Claims OASYS' Financial Error Rate Is Significantly Greater Than            fit disagrees.
       lndustrv Standards.                                                             See page 69.

       PWC claims that the financial error rates for OASYS were significantly higher
than the industry best practice standard for self-insured plans. 'PWC claims this industry
standard error rate is less.than one percent, but PWC supplies no citation or contractual
or industry standard to support this i ~ s dixit
                                           e conclusion.

       First of all, OASYS submits that PWC has erroneously calculated the financial
error rate. The calculation is based on the same sample of claims and the erroneous
conclusions discussed in Findings 3 through 9 infra. In this sense, this findiilg is not a
separate conclusion, but represents a cumulative judgment based on' a half dozen or
more erroneous assumptions. For example, the financial error rate includes
extrapolated data from Finding 7 which even PWC appears to concede is the
responsibility of the Corporation and is not within OASYS1scontrol.

       Secondly, there was a proposed standard for such financial errors in AdminaStar
Solutions/OASYS's proposal submitted in response to the RFP. In that proposal,
AdminaStar Solutions "recommends a 2% financial error rate tolerance." Proposal at p.
58. It also appears that PWC may be ill informed as to the standards of practice in the




        Page 41
Ms. Jo-Ann Swift
November 15, 1999
Page 4


industry. OASYS could never reduce the error rate to zero percent. And it would take
a n army of auditors, lawyers, claims workers to achieve any thing below o n e percent for
the expansive definition of financial errors being measured by PWC. T h e PWC analysis
also confuses clerical/technical issues with financial errors in such items as data entry,
missing claims and coordination of benefits.

         In addition, any discussion of error rates here should b e balanced against t h e
special problems that a r e inherent in administrating claims under the Corporation's plan.
First, the VISTA and other volunteers are a very unstable membership population.
Members come and g o with more than the normal turnover rate -- usually just o n e year
of service. Thus, the average member is with the plan for only a short period. This
m e a n s extra enrollment problems and errors. It also means increased medical record
survey delays. The members themselves.are also not your average group plan
membership demographically - for example they are predominately female. In short, it
d o e s not make much s e n s e to over-interpret the data comparing such a special plqn to
commercial groups. The comparison can be highly misleading.
        There is a costlbenefit analysis that goes haqd in hand with such a n effort a n d it
is up to the Corporation whether it wants to spend more than a dollar of administrative
costs chasing a single dollar of alleged savings. The cost of such a grandiose s c h e m e
of administration would surely destroy the economic feasibility of the ilnderlying health
plan by making it impossible to provide competitive health benefits. Cf., Federal Food
Services, Inc., v. Donovan, 658 F.2d 830 (D.C: Cir. 1981). ("Certainly, contractors could
hire an army of bookkeepers, accountants, and supervisors ...and perhaps most needful
of all, lawyers at each location. Such a practice, however, would elevate the cost of
operation to a level to endanger the future of appellants' type of business as a source of
employment."). T h e point is that perfection has its price, and this being a cost
reimbursement contract, that price would be borne by the Corporation.

       When the dust settles here, OASYS is confident that its real error rate satisfies
industry and contractual standards.
3.     PWC Claims OASYS Is Not Performing Coordination Of Benefits ("COB")               PwCdisagrees.
       lnvestiaations Reauired Bv The Contract.                                          See page 70.

       PWC contends that 53 claims were incorrectly adjudicated and paid by the
Corporation as the primary payer when the members had other insurance. PWC also
notes that information relating to coordination of benefits ("COB") in the plan benefits
brochure is allegedly in conflict with the terms of the contract. This issue constitutes the
single largest dollar amount of extrapolated overpayment errors allegedly m a d e by
OASYS.
       Since PWC h a s not identified which of the claims numbers a r e identified with
which errors, it is difficult to replicate the PWC analysis a n d respond to specific matters.
A preliminary chart analyzing the 53 claims is set forth a t Attachment 2 a t p.3. OASYS



        Page 42
.Ms. Jo-Ann Swift
 November 15,1999
 Page 5



has determined that 38 of the claims were processed correctly. Indeed, most of the
claims were correctly processed.

       Our preliminary review of the 53 COB claims indicates they fall basically into two
            -
categories dependent insurance and Medicare,. The first situation occurs where the
spouse of a member has insurance. The spouse's insurance generally is secondary if
there is any direct insurance for a member. PWC interprets the contract to mean the
Corporation's plan should be secondary in this situation. This is contrary to usual
insurance law rules that say if a worker has his or her own insurance and is also
covered as a dependent on another policy, the worker's own insurance is primary.
-
also discussion as to Finding 11.
     -
       As for the Medicare problem, there may have been some OASYS errors picking
up birthdates or documenting the investigation of coverage. Other errors resulted from
data entry problems. Some of the population, of course, is not eligible for Medicare and
OASYS' treatment may a correct but undocumented handling of the claim. Moreover,
we doubt the monetary scope of the $58,555.06 of possible errors is as much as PWC
reports. Medicare reimbursement is just a fraction of usual and customary rates. Thus,
OASYS would still have secondary liability. Some significant portion of $58,555.06
would still be the Corporation's responsibility. Thus, it is misleadug to question the full
amounts.

       OASYS is still engaged in the full review of the 53 claims that are questioiled and
will need to supplement this response. OASYS, however; submits that. PWC's
conclusion is defective as a matter of law. OASYS doe$.'perform COB investigations as
required under its contract. The procedures for COB were presented to the Corporation
per the terms of the contract. The Corporation signed off and approved the scope of
COB work. In turn, these procedures were memorialized every year in the Plan
brochure and communicated to the members. Thus, OASYS has complied with both
the contract and the terms of its coverage as communicated to the workers.

       PWC has misinterpreted the contractual provisions with respect to COB
obligations. The RFP under which offerors submitted their proposals stated as follows:

                Volunteers are required to complete a Coordination of
                Benefits Form (1992) [.I The VISTA plan is secondary payor
                if Volunteer is covered by Medicare or if the Volunteer is a
                named policv holder on a private health insurance policy.

RFP, Part I, Section C (emphasis supplied). The highlighted language on the "named
policy holdernmakes it clear that the Cor~oration'splan is primarv if the Volunteer is iust
a dependent to a named ~ o l i c vholder on another dan. Thus, the benefits brochure is
consistent with the contractual undertaking, and PWC's finding is misdirected.




         Page 43
Ms. Jo-Ann Swift
November 15, 1999
Page 6



        The crux of PWC's claimed deficiency on dependent coverage is that the
auditors wish to alter the contract and brochure terms. If this could even be done
retroactively, OASYS would have to be paid for any effort expended on the cost
reimbursement contract to recover monies. OASYS is willing to undertake such COB
activities retroactively if requested. Certainly, the Corporation may provide for a different
COB procedure in the future. And, of course, the Corporation will have to pay the extra
administrative costs and fees to provide for such enhanced procedures to the extent
they represent a change in the terms of contract performance. Until then, the only COB
procedures OASYS may follow are the ones in place in the Plan brochure, as approved
by the Corporation and communicated annually to the members.

       Nonetheless, there are two changes that OASYS has implemented to make COB
more effective. OASY,S has created a computer screen to manage the COB data which
is used by the claims processors. OASYS also has put specific COB procedures in
place (on-line by its intranet) instructing workers on how to coordinate benefits. This
should increase the efficacy of the COB effort henceforth.

4.     PWC Claims OASYS Is Not Performing Third Party Liability ("TPL") p,cdi,ag,ee,.
       lnvestiaations As Required Bv The Contract                       s e t page 7 1.

      PWC identified 12 claims that were paid for injuries it believes were related to
motor vehicle accidents. The 12 claims are found in only two of the four audited years.
The 12 claims total $222,655, which is extrapolated to overp-aymentsof $370,562.

         First, there is no general contractual requirement"for TPL in the Corporation's
contract with OASYS. OASYS has done some free TPL services for the Corporation as
a trial test so the Corporation can decide whether to add it to the contract scope of work.
OASYS has made a written proposal to add more TPL duties to the contract. To date,
the Corporation has chosen not to add TPL responsibilities to the contract. The TPL
issue, thus, is at most limited to personal injury protection PPIPn).andno-fault insurance
matters identified by PWC. And this is not a true TPL issue, since the Corporation is
primarily liable here, and this is really a collections matter since the Corporation initially
must pay the claims for health care. In other words, this is a pay first and decide to
seek money back later situation.

       Secondly, we are not sure how the PWC extrapolation was done and would need
the auditors' work papers to verify the assumptions. It is obvious that PWC did some
kind of adjustment for the fact that subrogation for personal injury protection ("PIP") or
no-fault auto insurance involves limited financial maximums which vary by State law. In
other words, PIP andlor no-fault insurance is unlikely to pay 100% of these claims
unless small in nature. OASYS is in the process of investigating the 12 claims and the
relevant State laws and can supplement this response when its investigation is
complete.




          Page 44
Ms. Jo-Ann Swift
November 15, 1999
Page 7



        As a third observation, it appears that only 10 states have mandatory PIP
insurance. They are Colorado, Florida, Hawaii, Kansas,' Massachusetts, Michigan,
Minnesota, New York, North Dakota and Utah. Nine of the 12 claims were from non-
mandatory states. Of these nine, three claims payments were directed by Mr. Steve
Elias of the Corporation. Of the three mandatory PIP state claims, all three also had a
verification from Mr. Elias to pay the claim. Accordingly, OASYS submits that it
correctly processed all 12 of the TPL claims in question. OASYS's analysis of the PIP
claims is set forth at Attachment 2 at p.1.

       In completing the audit, PWC and OIG must be mindful of the liability conundrum
that drives the collection of third-party indemnity claims, third-party liability and
coordination of benefits with other plans. As a self-insured entity, and to the' extent
there is no sovereign .immunity, the Corporation is liable in tort for the denial of health
care claims in bad faith or certain other circumstances. Such claims can involve
punitive damages and large jury verdicts.' ' A recent example of that is the more than
$100 million jury verdict against Aetna U.S. Healthcare in California for alleged wrongful
denial of care. Given this sword of Damocles that hangs over the Corporation, it would
not be prudent for the Corporation to be overly aggressive in denying every possible
claim that might lead to subrogation, indemnity or contribution from another entity or
fund. Even if the Corporation is not liable, OASYS does not necessarily have a shield of
sovereign immunity as the Corporation's agent.

        In addition, given the demographic and social .characteristic of the Corporation's
health care members, such a strict policy may be counter productive both financially
and socially. First of all, the Corporation will likely find it .impossible, short of litigation, to
collect these small sums of PIP monies back from members, and the costs of litigation
will more than completely consume any servings. Moreover, from a social perspective,
the Corporation would be chasing the volunteer members for money and driving them
out of the program. Accordingly, if PWC's aggressive collection tactics are
contemplated, they must be implemented with an understanding of the consequences.

                                                            -
       Notwithstanding the above, the short answer to PWC's recommendation to do
                                           -
more TPL on PIP and no-fault claims is that OASYS is willing to be of service. To the
extent that PWC is recommending such aggressive collection and coordination efforts,
OASYS is willing to retroactively implement the tasks on a cost-reimbursable basis for
the years 1994 through 1998, if that is what the Corporation wishes to be done.


5.     PWC Claims That OASYS Inconsistently And Inaccurately Applied Pre-                     pwcdisagrees.
       certification Penalties                                                                See page 72.

       PWC claims pre-certification penalties have been inconsistently applied, resulting
in overpayments of $5,719 and underpayments of $6,185 in the sample group. This
translates by an unknown method into extrapolated overpayments of $51,581 and
underpayments of $37,533.



        Page 45
Ms. Jo-Ann Swift
November 15,1999
Page 8




       OASYS is still in the process of reviewing the claims related to this issue.
Enclosed a s part of Attachment 2 at page 20 is a draft chart analyzing each claim. At
least 13 of the claims are not errors. OASYS submits that those 13 were processed
correctly. It appears that the auditors have sometimes erred in their review of the
claims, although some of the claims do represent mistakes by OASYS. The sums
collected in certain cases were not related to pre-certification penalties. Instead they
are charges for non-covered services like a private hospital room that are not covered
under the plan. If you give OASYS time, the Company will sort out the auditor's errors
from OASYS's own errors and will produce a final chart and further analysis for your
use.
      As it stands, this problem is a common one for health plans and can never be
reduced to zero without excessive administrative expenses. OASYS just went through
an extensive industry accreditation process for utilization review. The Utilization Review
Accreditation Committee approved OASYS's medical management policies, procedures
and practices. Thus, OASYS is confident it is performing within the industry standards.
We also note that the financial impact of the pre-certification penalties to the
Corporation is largely a "wash."
6.     PWC Claims That OASYS Paid For Medical Procedures Related TO Pre-            pwcdisagrees,
       existina Conditions That Should Not Have Been Paid                           See page 72.

       The PWC auditors cite "several instances" where claims for pre-existing
conditions were paid. The actual amount of monies .mvolved is not reported. An
extrapolated overpayment error of $149,173 is claimed with most of the cost found in
fiscal year 1998. In addition, PWC identifies seven unspecified "potential" monetary
errors totaling $39,372 where OASYS was not asked to produce supporting
documentation. PWC asserts that the root of the problem rests with OASYS's use of an
"always pay" diagnosis list.
       OASYS reviewed the seven claims with "potential"errors and finds them all to be
processed correctly. See Attachment 2 at p.24. OASYS also reviewed the other pre-
existing claims and submits that at least four of them were processed correctly. Id.
      From a financial perspective, issues concerning conditions of this magnitude are
probably well below industry norm. OASYS is investigating this matter further and will
provide you a final chart analyzing each claim. As you know, the Corporation's Plan
has an onerous and unusual pre-existing conditions provision. It adds to the
administrative expenses because it requires substantial medical record investigation
and questioning of members. At the end of the day, there is a practical judgment to be
made about how far to go in expending administrative resources.

       As for the use of an "always pay" diagnostic list, this is done to prevent wrongful
denialltort claims and to protect the Corporation (and OASYS) from liability. At the


         Page 46
Ms. Jo-Ann Swift
November 15, 1999
Page 9



minimum, OASYS would have potential tort liabilities here even if the Corporation itself
has sovereign immunity. It is difficult to deny payment in certain circumstances. Such
diseases tend to resolve themselves and then recur making it difficult to prove they are
pre-existing conditions. Overly aggressive action by the health plan will only be an
invitation to tort litigation. OASYS's policy, in this regard, is in the Corporation's best
interest.

       With respect to the three medical conditions identified by PWC, two of them have
subsequently been removed from the "always pay" list. There are Polycythemia Vera
and Metabolic Disorders. Thus, these items will now be investigated and checked for
pre-existing conditions. Chronic sinusitis is still on the "always pay" list since the
problem can recur but not be deemed pre-existing.

                                                                          PwC disagrees.
7.     PWC Claims OASYS Paid Claims ~or'lneliqibleMembers                 See page 72.


       PWC has calculated $413,114 in claims paid to ineligible members.
Interestingly, the problem is confined to 1995 and 1996 and there is no PWC finding
relating to 1997 and 1998. This obviously is not a continuing problem.

      OASYS has reviewed the 33.claims that it identified which related to eligibility. A
spreadsheet chart analyzing those claims is enclosed. See Attachment 2 at p.9, It
appears that most of the eligibility problems are caused by the data that was provided to
OASYS by the Corporation.

        Moreover, even the PWC auditors acknowledge that OASYS is not the authoring
source of enrollment data. That is, OASYS accepts enrollment data from the
Corporation and as such relies on the data integrity with respect to termination dates,
effective dates, birth dates, sex, age, etc. More specifically, OASYS' claim processing
system will not allow a claim to be paid for a member who is not effective. The system
performs this check by comparing the service dates of the claim against the effective
and term date of the enrollment record. This business logic is applied as the claim is
adjudicated (processed date). If a member is retroactively terminated, OASYS receives
the updated enrollment information (from the Corporation) and updates its records
accordingly. Since this problem is of the Corporation's making, it is patently ridiculous
to lay the blame on OASYS as PWC tries to do by including these dollars in Findings 1
and 2 of its draft report. This is unacceptable and defamatory. These items should be
removed from Findings 1 and 2 and addressed separately by the Corporation to the
extent they have any continuing relevance.

    If the Corporation wishes OASYS to make an effort to collect such old monies,
OASYS will make such a recoupment effort on a cost-reimbursable basis.




      Page 47
Ms. Jo-Ann Swift
November 15, 1999
Page 10



8.    PWC Contends The Benefits Outlined In The Contract Were                        PWC disagrees.
      Misinter~retedIn The Health Benefits Brochure Provided To The Members          See page 72.

       PWC maintains that OASYS1s benefits brochure is inaccurate per the contract
requirements. One example is alleged to be COB of dependents where the brochure
makes the Plan primary. Another example .is alleged overcollection of co-pays for
outpatient visits rather than just doctor office visits. PWC states further that it is
confused as to the effective date the co-pay became applicable.

       OASYS submits that the contract language resolves the COB responsibilities for
Plan members that are de~endentsunder other coverage. The RFP clearly provides
that VISTA is secondary if the volunteer is a "named policy holder or a private health
insurance policy." RFP; Part I, Section c. Moreover, the custom in the insurance
industry is to interpret contract clauses regaiding primary or secondary coverage by
looking at the contractual relationship of the plan enrollee. If the enrollee is not the
primary member on the policy and, instead, is but a dependent, then if that dependent
has his or her own direct policy, it is deemed to be primary as a matter of law. Finally,
and most importantly, the benefit brochure used by OASYS was approved by the
Corporation. If the Corporation wants to change the language, it surely may do so, as
PWC as recommended. However, this is an executive judgment for the Corporation to
make and should not reflect adversely on OASYS for following standard insurance
industry practices and legal precedents, after approval of the brochure by the
Corporation.

        PWC1s observation about the co-pay for doctor office visits verses outpatient
visits strikes us as a distinction without much meaning. The original contract said
nothing about co-pays. At the Corporation's directive, OASYS was told to revise the
benefits brochure in 1996 to add co-pays. Amendment M035 confirmed this change
and added "[a] $5 copayment for all doctor's office visit[s.]" effective May 18, 1998. The
May 1998 brochure contains a co-pay of $5 for "outpatient services." The co-pay is
coded in the automated claims.computer.system to collect the co-pays for office visit
codes. For example, a co-pay is not normally collected for physical therapy if it is
properly coded. Moreover, if the Corporation does not wish that a co-pay be collected
for all out-patient office services, it may direct OASYS accordingly.. Otherwise, OASYS
is obligated to administer the Plan in accordance with the brochure approved by the
Corporation. Finally, we note that this issue has only a positive impact on the Plan
finances, albeit at the theoretical expense of the members.

       We are still reviewing the claims to analyze co-payment errors. OASYS submits
that at least 38 of the ostensible "errors" identified by PWC were actually correctly
processed according to the benefits brochure. Another 11 have been determined to be
true "errors." See Attachment 2 at p.3. Based on a July 1, 1996 effective date for co-
pays; 17 of the questioned claims were paid correctly. See Attachment 2 at p.7. An
additional six claims were also examined by OASYS and found to have been processed
correctly. Id.



       Page 48
Ms. Jo-Ann Swift
November 15,1999
Page II




9.     PWC Claims That Benefit Overrides Occurred Without Documented p,c disagrees.
       A~provalfrom the Corporation's Manaaement                     See page 73.

        PWC claims that OASYS paid for benefits for "more than one member" for
inpatient stays exceeding contract limitations, outpatient services exceeding contract
limitation and non-covered services. OASYS advised PWC that the COTR verbally
approved these payments. See Attachment 2 at p.6. PWC presents no evidence this is
not the case.

       OASYS's system is fully compliant with the appeals process set forth in the
contract. The ability of the Corporation to resolve claims outside of the process is a
discretionary act of the .Corporation. If the Corporation wishes to exercise that
discretion, it may do so. OASYS would agree with PWC, however, that in the future it
might be better if the Corporation does so by written directive.

      OASYS's current practice is to send an e-mail confirming the COTR's direction
andtor enter into the computer database a note on the authorization to pay. OASYS
has made a large investment in workflow and,imaging technology which enhances the
Company's ability to document the "overridesnin the future.


10.    PWC claims that OASYS did not comply with the processing time ,,cdisagrees,
       requirements in the contract.                                 See page 73.

        PWC maintains that only 38% or 303 claims out of 800 are processed within 14
days. PWC claims that the industry standard for such processing is 90%. PWC
contends that it could not determine COB processing time because of the previously
identified issues. PWC noted that it did not gather a statistically valid number of denied
claims and could not make conclusions as to the processing time of those items.

       Initially, we note that PWC1sanalysis is severely flawed if not grossly negligent.
The very first sentence of this finding notes that the "contract requires that 90% of clean
claims be processed.in 14 days ...." (Emphasis added). Then PWC goes on to assume
that all the 800 claims it collected are "clean." This is patently absurd and a
misrepresentation of the data. PWC knows that a significant number of the 800 claims
are 'dirty"-    maybe even half of them. The major causes include the pre-existing
condition requirement, re-opened claims files, and incomplete documentation. To lump
together clean and dirty claims, and then pretend that the analysis thereof relates to a
contract requirement for clean claims only, is simply unfair.

       PWC also provides no citations to the origin of its so-called "best practicesn
processing times. In addition, PWC ignores the special terms of the Corporation's
contract that disqualifies any pre-existing condition. The contract contains very onerous
requirements with respect to pre-existing conditions that are at marked variance for the




         Page 49
    Ms. Jo-Ann Swift
    November 15, 1999
    Page 12



    usual commercial insurance agreement. This alone significantly impacts on processing
    time as medical records must be gathered and analyzed before claims are paid.
    Protessing time here should not be casually compared to industry practices.
'      8




            Finally, 'as PWC knows, OASYS has periodically provided its own data on the
    processing of claims to the Corporation. This data is generated off the computer
    database and eliminates the "dirty" claim problem. The documentation is voluminous,
    but if you wish a copy please contact us. That timeliness processing data indicates as
    follows:

                 -
                 Year                 15 Davs             30 Davs




           OASYS has given the Corporation monthly reports on its timeliness for a long
    time and those reports show that there is no current problem processing claims. See.
    a,   Attachment 3. OASYS is of the opinion that the conclusions to the contrary in the
    draft PWC report represent a fundamental misunderstanding by PWC of how to read
    the dates on the claims screen.

           OASYS own analysis of its processing time indicates that there was a fali off in
    1998 during a period of corporate uncertainty, when the contract was novated, staff
    turnover increased and the operations were moved to a new building. This is hardly
    surprising and OASYS has worked hard to fixed that special one-time situation. In
    1999, OASYS is currently processing claims in a very timely fashion and has only a five-
    day backlog of new work at the present moment. OASYS respectfully requests that
    PWS revise its defamatory and erroneous conclusions.

    11.    PWC claims that OASYS does not have adequate inventory controls for PwCdisagrees.
           claims documentation.                                               See page 74.

           PWC maintains that OASYS had.difficultylocating the 800 selected claims for the
    audit. PWC extrapolates the value of the missing claims to $1,I  11,647. PWC also
    seeks to impose a requirement for an inventory log when claims are sent offsite for
    imaging.

           OASYS submits that both these findings are in error. First, OAYSY provided 751
    of the 800 claims PWC sought in a timely manner. OASYS has determined after
    subsequent investigation that 15 additional missing clairns appear to relate to events
    early on in contract performance during the transition from the predecessor contractor,
    Blue Cross Blue Shield of the National Capital Area. At that time, the Corporation was




           Page SO
Ms. Jo-Ann Swift
November 15, 1999
Page 13



paying some member claims directly and the OASYSlAdminaStar Solutions team was
simply providing claims services. Since the Corporation cut the checks for these claims,
as best we can determine, it is probable that either the Corporation or the previous
carrier have the claims documentation. An analysis of these claims can be found at
Attachment 2 at p.1 I.

       OASYS has also found another 22 claims and these files will be supplied to PWC
under separate cover. Several of these claims have financial errors and OASYS has
noted that on the spreadsheet chart summarizing the alleged "Lost Claims." See
Attachment 2 at p.11. This leaves just 11 missing "hard" claims documents involving a
small amourit of money.

       OASYS is also making an effort to retrieve documentation relating to the other
missing claims, including the one other missing claim for a high dollar amount. The
basic problem here relates to the microfilm system used by OASYS prior to April 1997.
It was not perfect and errors in microfilming, filing, storing and retrieving documents
were always possible prior to the purchase of the MACESS photo imaging system.

      The point is, however, that those problems were not very significant and are in
the past. As PWC and the Corporation know, OASYS invested in a very sophisticated
computerized imaging system known as MACESS. This system has eliminated the type
of errors and document retrieval problems associated with the prior microfilm
methodology. Thus, the errors identified by PWC are moot.

       In addition, there is no need for the recommendation to establish a claims
inventory log to track offsite imaging of documents. Simply put, there is no such offsite
imaging done anymore. All imaging is done onsite at OASYS due to the new technology
purchased in part for use on this contract.

12.   PWC claims that OASYS1s Health Care Claims Processing System
      ("HCPS") has limited capabilities to accurately capture data elements as
      thev appear on the submitted claims.
                                                                                   zp:Er.
       PWC contends that defects in OASYSJs HCPS claims system may lead to
inaccurate data. PWC focuses on perceived limits in the HCPS coding and the "roll-up"
of costs into a consolidated revenue code. PWC also claims that PPO re-pricing efforts
are hampered. PWC would like to see more than two ICD9 codes identified on claims
along with upgraded HCPC codes, revenue codes and ICD9 capabilities.

       OASYS does not believe that such a change to the contract requirements is
warranted. HCPS, for example, does allow for more than two codes. Room for two
more codes exists at the bottom of the screen page. While OASYS does roll-up
charges, it does not duplicate out or delete the underlying charges. The data is all
there. The claims are being paid correctly, all relevant codes are collected, and the
level of code detail sought by PWC is simply unnecessary. Since the claims processor



       Page 5 1
Ms. Jo-Ann Swift
November 15, 1999
Page 14



can pull up the original claim on the screen, there is no need for the UB-92 revenue
code to avoid paying duplicate claims. Nor did PWC report any evidence of such a
problem. The claims are just a mouse "click" away. The current system flags duplicates
and allows the claims processor to systematically review the images.

      OASYS1score processing system allows up to 9 ICD9 Diagnosis codes and up to
3 ICD9 procedure codes. Also, OASYS's system utilizes industry gtandard CPT
procedure, ICD9 diagnosis, ICD9 procedure, revenue and dental codes. Moreover,
OASYS purchases these codes from the industry leader in this market                    -
IngenixlMedicode. This is an inaccurate finding.

        Regarding the adjustment logic within the system, OASYS's core processing
system does allow a processor to adjust a previously paid claim and utilize the same
claim number. However, if the adjustment requires a different pay (to a different
provider) the system requires that a new claim number is created. The policy and
procedures for creating this new number are to change the first two digits of the claim
number to 55. More importantly, this has no impact to OASYS's processing quality
since its duplicate logic is not based on claim number.

       PWC also o b s e ~ e dthat OASYS1s'systemat one time supplied entirely new
claim numbers to claim adjustments. This, however, is no longer the case. When a
claim is adjusted now, a new claim number is not created other than as set forth above.
For at least one year, the practice'has been to add an EOB to the existing claim. Thus,
no further corrective action is required.

13.    PWC claims that provider information in HCPS does not appear to be PWC disagrees.
       accurate.                                                          See page 74.

        PWC contends that possible inaccuracies in the list of participating providers in
the Preferred Provider Network ("PPO") may result in the loss of PPO discounts. At one
time when OASYS had 25 different state-based PPOs under contract, this criticism
might have some basis. It was impossible for OASYS to maintain up-to-date information
on PPO networks and if OASYS processed the claim rather than it being submitted first
to the right PPO, then it is possible that discounts would be overlooked.

       OASYS has analyzed the alleged provider errors cited by PWC. Most of the
alleged "errors" were, in fact, correctly processed. A spreadsheet chart setting forth
OASYS's analysis is provided as Attachment 2 at p.26.

       Today, however, this problem cannot recur. OASYS has just a single nation-
wide PPO network through a company called Foremost. Every claim goes first to
Foremost, where it is re-priced by individual line items based on the procedures and
provider. Foremost stamps each claim to identify if it is a PPO discount item. Only then
is the claim processed for payment. Thus, there is no need for further action here and



         Page 52
Ms. Jo-Ann Swift
November 15, 1999
Page 15



the recommendation made by PWC, that OASYS vigorously pursue electronic updates,
has no relevance.

14.   PWC claims that OASYS's processing error rate is significantly higher pwcdisagrees.
      than industrv best practice standards for self-insured roer rams.     See page 75.

        PWC contends that OASYS's error processing rate ranges from 27% to 43% and
that this greatly exceeds industry best practices. PWC provides a chart showing error
rates of 3% to 5% are standard in the industry. PWC notes that the error rate would fall
to within industry norms if its recommendations were adopted.

       As a starting point, OASYS agrees that a 5% technical/clerical error rate is the
commercial industry norm. Whether that 5% rate is appropriate for the Corporation's
contract is another issue. A 3% rate is not appropriate. In its proposal to the
Corporation in response to the RFP, AdminaStar Solutions recommended "a 5%
technicallclerical error rate tolerance." Proposal at p. 58. OASYS is still engaged in the
process of reviewing the 152 cited PWS sample of technical/clerical errors to determine
whether it is meeting this goal. When OASYS has finished its analysis, we will
supplement this submission.

       OASYS is confident, however, that the technical error rate is being greatly
exaggerated by the PWC presentation.             The auditors apparently misread or
misunderstood the screen .data that they were'reviewing. They also included as errors,
items that were, in fact, correct. In other cases, the cause of the error was faulty or
incomplete data supplied by the Corporation. Lastly, many alleged mistakes are just not
properly classified as errors and, in fact, are correct actions. However, whatever the
case or fault for the error, we agree with PWC that this does not reflect any major
uncorrectable problem

15.    PWC claims that OASYS has outdated policies and procedureszrelated to PWC disagrees.
       claims processina.                                                    See page 75.


        PWC recommends that OASYS update its policies and procedures for claims
processing given the corporate entity changes that have occurred. While not very
significant in nature, OASYS agrees with this finding and has taken it to heart. OASYS
has new policies and procedures that have been placed on the corporate intranet. They
specifically relate to claims processing policies and procedures. Thus, this finding is
also moot.




      Page 53
Ms. Jo-Ann Swift
November 15,1999
Page 16



16.   PWC claims that OASYS holds claims payment checks in a desk drawer
      due to insufficient funds in its Corporation for National and Community PWCdisa@ees.
                                                                              See page 75.
      Service claims ~avmentaccount.

      PWC contends that OASYS holds checks in a desk drawer and thereby
inadequately safeguards the Corporation's assets. PWC notes that the problem arose
from inadequate funding of the checking account by the Corporation. PWC's
recommendation is that OASYS obtain a line of credit to finance the Corporation's
delays.

       OASYS unequivocally rejects this erroneous finding. First of all, the checks' held
in a drawer were unsigned. Only when the payment was funded was a signature plate
endorsement placed on them, and at that moment they were immediately mailed. Thus,
there were no inadequate safeguards and this finding is without foundation.

       Moreover, under a new system being put into place by OASYS, no checks will
even be created until the time for payment has arrived. Checks will be done on the
computer on a real-time basis and there will be no partially preprinted and completed
check media to even store away. Thus, there is no need for the safe or any other
corrective action.

      As for the recommendation for OASYS to get a line of credit and finance the
Corporation, it suffices to say that would be a substantial change to the contract.

17.   PWC claims that the customer service unit does clot meet the minimum
      performance standards that OASYS has set for average telephone
      answerina time and the corres~ondinastandard abandonment rate.
                                                                                   ~~~~~~
       PWC suggests that OASYS is not meeting a performance standard for average
telephone answering time and abandonment rates. There are no such explicit standards
in the contract, however. Nor does PWS quote or cite any portion of the contract to
support its conclusion. While OASYS has reported its practices to the Corporation, it
remains fully compliant with all terms of its contract.

       In addition, OASYS believes that it is meeting or exceeding industry standard call
center performance criteria. Customer/rnember service is the number one objective.
Between October 1997 and June 1998 OASYS tracked telephone call volumes. The
date shows that calls ranged between about 2,300 and 3,200 a month and that
abandoned calls were relatively steady around 150 or less calls a month. OASYS
submits that it has the proper staffing to handle the customer service work and that any
additional staffing requirement would constitute a change under the contract.




       Page 54
Ms. Jo-Ann Swift
November 15, 1999
Page 17



Administrative Costs Review

18.      PWC questioned $2,209,436 (85 percent) of invoiced administrative costs
         primarily because OASYS allegedly could not provide adequate support bCdisagrees.
                                                                                 See page 75.
         for the charaes.

       The auditors question a total of $2,209,436 of administrative costs. They
maintain that OASYS could n'ot provide adequate support for the charges. The draft
audit report itself contains insufficient detail for OASYS to determine which specific
costs are being questioned. On November 10, 1999, OASYS received a hard copy of
the detailed back-up to the auditors' work (which we will refer to as "the allowability
matrix"). The dlowability matrix provided sufficient detail to permit OASYS to begin to
conduct an in-depth review of a portion of these charges.

        We question why the allowability matrix was not provided initially, as was the
detailed breakdown of claims issues, given that no meaningful analysis of the cost
issues could take place without it. This is particularly puzzling since OASYS had
requested detailed information in the exit conference. Obviously, OASYS has not had
sufficient time to evaluate the auditors' challenges thoroughly. Nonetheless, OASYS is
able to provide the following illustrations of the errors and shortcomings in the auditors'
approach and conclusions. The costs discussed in this initial response represent
$1,444,395, which is approximately two-thirds of the total costs questioned. As OASYS
completes its analysis, we will submit comments on the remainder of the questioned
costs that are not addressed below.
                                                                                              hvC disagrees.
          a. salaries and Fringe Benefits                                                     See page 76.

       The auditors question $651,582 in salaries and fringe benefits, the entire amount
claimed under the contract. Clearly, this is the most shocking conclusion of the draft
audit report.

       Despite the auditors' assertions to the contrary, OASYS was able to support fully
the labor costs billed to the contract with timekeeping records.' OASYS provided the

      For the first three years of the contract, OASYS employees did not complete timecards. Employees
      were assigned to and generally dedicated to a particular contract and their labor costs were charged
      to that cost center. Employees charged as indirect costs, such as administrative and data processing
      personnel, filled out timesheets showing hours worked on cost-reimbursement contracts. This
      approach was found acceptable in a pre-award audit conducted by the Defense Contract Audit
      Agency in early 1994. See Draft of DCAA Audit Report No. 1621-95R17700002, Accounting System
      Review of Administar Solutions, Inc. enclosed herein as Attachment 4. The scope of the DCAA audit
      included consideration whether 'timekeeping and labor distribution systems are adequate,' Audit
      Report, at p.1, and the auditors opined that 'Administar Solutions, Inc.'s accounting system is
      adequate for the accumulation and reporting of costs under government contracts,' Audit Report, at
      p.2. In an attached 'Preaward Survey of Prospective Contractor Accounting System,' the auditors
      found the accounting system acceptable for award and described the contractor's system in some
      detail. See Audit Report, at p.7. Their only concern was that the labor costs of the administrative
      personnel that were direct charged be removed from the indirect cost pool.




           Page 55
Ms. Jo-Ann Swift
November 15,1999
Page 18



auditors with a detailed payroll report of every employee on the payroll system for the
first three contract years. The records showed, among other things, the cost center to
which the employee was to be charged, the annual salary of the employee, and the
amount paid to the employee by two-week pay period. Further, all payroll costs were
broken out between regular wages and payroll taxes. At the audit manager's request,
this report was explained in detail to one of the three auditors. This auditor
subsequently left OASYS1soffice in the middle of the engagement.

       Also in contrast to the auditors' conclusions, OASYS had no difficulty performing
a reconciliation of the payroll feeder records to the labor recorded in the general ledger,
when the auditors made that r e q ~ e s t The
                                           . ~ reconciliation showed the total three-year
variance to be only $444 out of a total of $366,816. See Attachment 5, Analysis of
Payroll Feeder Entries on the General Ledger.

        To demonstrate that this reconciliation could be performed, we have attached
documentation related to payroll costs for the month of July 1996. The total billed in the
July 1996 invoice is $58,444. The reconciliation shows that this total includes $19,210 in
salaries, benefits and taxes billed to the VISTA cost center "4247," plus $285 in
additional salary cost for Jim Elmore. See Attachment 6, pp.3-4, Reconciliation. This
number is backed up by an operating expense report, which is in turn backed up by the
earnings history report and journal entries. See Attachment 7, Operating Expense
Report, and Attachment 8, Earnings History Report. Attachment 9 is a reconciliation
prepared by OASYS that shows the supporting evidence for each charge in the
operating expense report, which has been coded to tie 'back into the entry in the
supporting documentation that supports the charge. To doctjment the payroll expenses
in the operating expense report, one must aggregate the following charges to "4247" in
the earnings history report for this time period, including regular pay, overtime, "other"
(i.e. sick leave), and a combination of FJCA and Medicare tax. In ~ddition,the costs
billed include those in the "rnedicalldental chargeback" account (a monthly per
employee charge) and other employee beneffis (a percentage of pay). Other items in
the operating expense report are supported by journal entries related to cost center
"4247."        Attachment 10, Journal Entries. Finally, the "additional salary costn is
supported by a timesheet in which Mr. Elmore, a non-dedicated employee, recorded the
time he spent on the VISTA contract. Attachment 11.

       OASYS has voluminous records to support its payroll expenses. Its payroll
feeder sheets alone, just one component of the analysis, would fill at least three records


   Perhaps the auditors were unable to duplicate the process, as reflected by their comment at the time
   of the request that performing the reconciliation would be a 'challenge" to them, but the records are
   not the source of the difficulty. The auditors' inability to perform the simple reconciliation is evidence
   of their lack of basic payroll knowledge. As another example, the supervisor of the administrative
   costs audit team questioned three OASYS management employees on separate occasions about its
   FlCA tax charges, apparently unaware that FlCA has both an employee and an employer component.




       Page 56
Ms. Jo-Ann Swift
November 15,1999
Page 19



storage boxes. Nonetheless, OASYS will be happy to copy and deliver such records or
to make them available again on site, to prove the error of the auditors' findings. In
addition, should it prove necessary, OASYS requests the opportunity to explain its
system once again to clarify any remaining questions or doubts the auditors have.

       During the fourth year of the contract, an intranet-based time reporting system
was installed in which employees make time entries daily into the computer and payroll
charges are booked to a direct cost center. This system was both demonstrated and
explained in detail to the auditors. The reports showing total payroll charges and the
recording of direct labor were provided to the auditors. See Attachment 12, 1998 Payroll
Data.

      Again, it is shocking for the auditors to question 100 percent of OASYS' payroll
costs. It defies credulity that I00 percent of'the direct labor of dedicated employees
could be unallowable. Yet, the auditors failed to segregate out the questioned costs, as
Federal Acquisition Regulation ("FAR") § 31.201-2(c) requires.
                                                                          PwC disagrees.
       b. Consulting costs                                                See page 77.

        The auditors questioned $183,211 of consulting costs. Again, OASYS is
prepared to address a few issues at this time to demonstrate the inaccuracy of the
auditors1findings and the allowability of OASYS1scosts. Other issues will be addressed
in later submittals.

Dr. Wilson Dalton

       The auditors question $7,800 for the services of Dr. Wilson Dalton, $7,200 of
which appears in the "missing consulting agreement" total and $600 of which is located
in the "missing subcontract agreement" subsection. Dr. Dalton serves as the Medical
Director: for OASYS and its Utilization Management Department, a position required by
law. He is paid a fixed monthly fee by OASYS, $300 of which is allocated to this
contract. Although OASYS showed the auditors an affidavit from Dr. Dalton describing
his compensation and the services he provides, see Attachment 13, the auditors
disallowed these costs because of the lack of a consulting agreement, without informing
OASYS that this was a fatal defect.

       Indiana law prohibits the corporate practice of medicine so Dr. Dalton is not an
employee of OASYS; Dr. Dalton is by necessity a consultant. Dr. Dalton's original
consulting agreement is attached as Attachment 14 (Associated State Government
Contracts, Inc., the other party to the contract, is an entity that became part of
Administar Solutions, Inc.). Clearly, these costs are reasonable given that Dr. Dalton's
customary consulting fee is currently $100 per hour and he spends an average of five to
six hours per month working on the VISTA contract. See Attachment 15, Affidavit of Dr.
Wilson Dalton. In fact, the moderate amount of the medical fee suggests that the
Corporation is receiving a true bargain here. These costs should be allowed in full.



       Page 57
Ms. Jo-Ann Swift
November 1% 1999
Page 20



Moreover, all similar costs encompassed by the invoices discussed below in
subparagraph j should also be allowed.

Celtic'Life Insurance

       The auditors question $57,102 in fees paid to Celtic Life Insurance, $31,251 of
which was on the basis of the "missing subcontract agreement" and $25,851 of which
allegedly had "no support" (apparently because the charges were supported only by a
general ledger entry and not by a check.). These costs represent the fees paid on a
monthly basis for the conversion health care policy at the completion of a volunteer's
term. Curiously, the auditors allowed $46,503 of other Celtic Life charges, indicating in
their matrix that the subcontract was present and correct. For example, the auditors
allowed charges for January and April of 1996.but questioned charges for March 1996.
Thus, there appears to be no rhyme or reason to the auditors' approach to these costs.

       A copy of the subcontract is attached hereto as Attachment 16. Since this was a
recurring charge paid on a regular monthly basis and a significant portion of the ledger
entries are supported by checks, we believe the absence of checks for a limited number
of these charges should not be fatal. If necessary, OASYS will retrieve banking records
to support all charges, provided that the Corporation authorizes in writing the incurrence
of the cost reimbursable expenses of taking this action. All of these costs should be
allowed. In addition, all similar costs encompassed by the invoices discussed below in
subparagraph j should also be allowed.
                                                                            PwC di~a~rees.
       j. Other Non-payroll Costs                                           See page 78.

       The auditors questioned $727,911 of non-payroll costs included in 24 invoices
(having challenged separately all payroll costs related to these invoices). Our analysis,
indicates that this category includes all of the costs in 21 invoices and portions of the
costs in three others.

        The auditors' claim that OASYS was unable to provide "sufficient, competent,
and relevant evidence in a manner that was auditablen is patently false. OASYS
provided the same types of information to the auditors to support the invoices included
in this category as its supporting documentation for the invoices the auditors analyzed in
detail. These invoices also span the length of the contract, rather than being limited to a
particular timeframe. It is not credible that the auditors could audit April and July 1996
but not May and June. See Attachment 17, Breakdown of Invoices. If the auditors
could audit some of the invoices, they could audit all of them. We can only conclude
that the auditors were unable to complete the task l o which they had been assigned in
the time allotted. But the fact that these invoices were not audited does not mean they
were not auditable.

       In fact, it does not appear that the auditors engaged in any meaningful analysis
of the costs included in this category. The allowability matrix provided to OASYS just




        Page 58
Ms. Jo-Ann Swift
November 15,1999
Page 21



 days ago does not include a breakdown of the costs from these invoices; it is limited to
 the costs included in the other invoices. The completion of this matrix was the auditors'
 technique of memorializing their analysis of costs; ihus, the absence of these costs in
 the matrix is prima facie evidence that these costs were never analyzed. Nor did the
,auditors have sufficient time to audit all of OASYS' records in a thorough and
 responsible manner. Toward the end of their fieldwork to audit 16 selected invoices, the
 auditors decided to expand the scope of their review to include all 40 invoices submitted
 and paid under the contract. OASYS personnel were given a few days to pull all
 documentation to support these 24 additional invoices selected for testing.
 Attachment 18, Letter from Jennifer Ponski to Sandera D. Oliver dated July 30, 1999
 (without attachments). Despite the short timeframe, OASYS personnel provided such
 documentation and organized the information in a manner that facilitated the auditors'
 rev-iew. The method of organization was explained to the auditors, who raised no
 objection. In fact, the auditors never indicated that OAWS's accounting methods,
 records or support for the 24 invoices was inadequate.

       The additional records were requested on Friday, July 23, 1999. OASYS
provided them on July 30, 1999, the fourth business day after the request. The auditors
completed their fieldwork on August 6, 1999, four business days later. Given that the
auditors had expended two and a half weeks working on the review of 16 invoices, it
strains credibility to expect that they would complete the analysis of the remaining
invoices in a total of five working days. The 24 invoices include 10 from the original
request and 11 complete and three partial invoices from the expansion.

       To demonstrate the auditability (and allowability) of these costs, OASYS selected
the month of May 1998 and assembled all available supporting documentation for the
expenses invoiced therein. See Attachment 19. Of the total $128,268 invoiced in May,
OASYS was able to provide support for $128,107.93, which represents all but three
items. All three of these items are recurring monthly expenses: $2456.90 for IPL (the
electric company); $407.79 for Tropics (a plant maintenance service) and $132.90 for
Citizens Gas, $160.07 of the total of which was allocated to the VISTA cost center.
These items are certainly ordinary and necessary; the amounts are generally consistent
with the charges for these utilities and services in other months; and the recurring
nature of these expenses and the back-up available for other months provides sufficient
assurance that these expenses were actually incurred. Thus, all of these costs should
be allowed, notwithstanding the minor deficiencies in the supporting documentation for
three items. If additional supporting documents are necessary, copies of the invoices
could be requested from the public utilities and Tropics.

         The auditors' challenge to these costs is insupportable. Their inability to complete
 their audit duties does not make these costs unallowable. Nor should OASYS be forced
to justify every cost in invoices that were never truly subjected to audit. We submit that
 all of the costs questioned in this category should be deemed allowable costs or, at a
tminimum, the costs included in the 21 complete invoices should be removed from the
 scope of this audit.



       Page 59
Ms. Jo-Ann Swift
November 15,1999
Page 22




       In compliance with FAR 5 52.215-2, OASYS afforded the auditors full rights to
examine and audit its records. OASYS gave the 'auditors access to all accounting
records, including general ledgers, journal entries, invoices and other supporting
documentation. In addition, OASYS personnel were available to answer all auditor
questions. OASYS personnel even provided significant assistance to the auditors in
pulling accounting information requested.

      Contrary to the auditors' gratuitous assertion of noncompliance, OASYS
complied with FAR 3 31.201 (d) by accounting for its costs appropriately and maintaining
supporting records.

       In contrast, the auditors violated FAR § 31.201-2(c) by disallowing all costs
relating to the 21 full and three partial invoices based on OASYS' alleged
noncompliance with the Federal cost principles. FAR 5 31.201-2(c) provides that those
costs "in excess of the amount that would have resultedn from using the FAR cost
principles should be disallowed. The Draft Audit Report obviously oversteps these
bounds, never suggesting what portion of the costs is allowable. Moreover, here all of
the costs are clearly reasohable, allocable and allowable.
                                                                            PwC disagrees.
       Findinq Nos. 19 throuah 27                                           See page 79.

       OASYS has not been given the time to complete its analysis of these items.
OASYS will respond to these findings at a later date. Initially, OASYS must complete
the analysis of the remaining questioned costs (Finding 18) and review the support for
these charges. Since OIG just provided the data to analyze these costs, and OASYS
received its hard copy on November 11, 1999, we submit that it is entirely reasonable to
take the time to evaluate that data and respond to it in a helpful and intelligent manner.

        As it stands, we note that PWC's conclusions are in sharp contrast to the
conclusions of the Defense Contract Audit Agency which conducted a pre-award audit
of the accounting system of Administar Solutions, Inc. DCAA approved many of the
accounting practices that PWC finds deficient. OASYS submits that it is compliant with
its obligations under the FAR and Cost Accounting Standards.

Computer Systems Review

28.   PWC claims that OASYS does not have a complete set of policies and                   mcdisagrees.
      procedures qovernina svstems securitv administration and monitorina.                 See page 79.


       PWC is confused here. OASYS does have complete policies and procedures
governing systems administration and monitoring. What OASYS lacked was a single,
unified, comprehensive policy manual.




        Page 60
Ms. Jo-Ann Swift
November 15,1999
Page 23



      PWC was advised that OASYS did not currently have one comprehensive
document that contsined all system policies and procedures. More specifically, the
OASYS Information Techndogy Department has, evolved from multiple information
technology functions and OASYS recently centralized all departmental' functions.
HowevCr, OASYS maintains and did make available to PWC documentation related to
1) access/removal of security and 2) backup procedures for HCPS. Specifically,
OASYS provided the auditing team with:

          Human Resource Handbooks which contains acceptable use policy
          Change Control Policy and Procedures
          Technical Security Audit conducted by OASYS internal Staff (3118/99)
          Organizational Charts which depict areas of responsibility
          Access to System Audit Trails (logs).
          Offsite Storagehackup contracts a.nd agreements

       In light of the documentation that was available and the current practices being
deployed by staff, OASYS submits that it is inaccurate to depict the management team
as approaching this important function with a lackluster attitude. Nonetheless, OASYS
does agree that a comprehensive document of policy and procedures is a better tool for
evaluating and monitoring control objectives than the several separately created
documents OASYS has maintained. To that end, OASYS has created a new
comprehensive, set of system policies and procedures. See Attachment 20. Also
included as an attachment are: Internal Security Audit conducted on 3/18/99 (see
Attachment 21) and WAR Dialing System Analysis (see Attachment 22).
                       I


29.   PWC claims that OASYS does not have an up-to-date business continuity         PWCdisagrees.
      plan in place.                                                                See page 79.


      OASYS has taken reasonable steps to insure business continuity in the event of
an unforeseen catastrophic event. It should be noted that OASYS maintains a contract
with COMDISCO as its' disaster recovery site. This hot site provides 'the following
coverage:

          1 DEC 2100A (DEC alphaserver 2100a 51300 (wd2l aux)
          2 Alpha Processors (300mhz)
          1 Gigabyte Main Memory
          1 Console Color Graphics Monitor
          1 CD ROM
          1 Ethernet Port
          15 2.1 Gigabyte Drives (RZ28)
          2 Tape Drives (TZ88)
          1 HP Laser Jet 5si Printer(Ethernet Connected)
          3 Dot Matrix Printers
          1 Impact Printer (1200 LPM)



        Page 6 1
Ms. Jo-Ann Swift
November 15, 1999
Page 24




       Although OASYS's current Disaster Recovery plan was originally developed prior
to the creationlspin out of the Company, the basic methodology and .necessary
components (hardware, software and system backups) are in place. More specifically,
OASYS's core processing system (HCPS) is the only mission critical application in the
event of an unplanned interruption. In other words, the absence of hardware
components for OASYS's workflow and imaging and other application servers reflect
the fact that OASYS could revert to paper based processing in the event of a disaster.
Prior to April 1997, OASYS did use a paper-based system and it would be possible to
revert to such a system again in an emergency.

       As a point of clarification, OASYS notes that it is their policy to perform daily
system backups for all, application used b,y the organization. These include the
following servers:

          Email Sewer
          Internet & lntranet Server
          WorkFlow & Imaging Servers
          Data Warehouse Server
          Core Processing Sewer (HCPS)
          Billing & Receivables Sewer (Great Plains)
          Novell File and Print Sewers
          Automated Mailing Sewer

However, from a contract standpoint, OASYS's core processing system (HCPS) is the
only application which is required to carry out the contract duties.

        Nonetheless, OASYS continues to evaluate its business continuation and
disaster recovery processes. To that end, OASYS has acquired an industry standard
disaster recovery model. This database driven tool uses a question and answer format
to help organizations ensure they have the proper plan and controls in place. In general
it covers:

                                 -
           Company Information Scope of the disaster recovery plan. Assumptions
          .made. Business Impact Analysis.          Criticality Level for Applications.
           Escalation Plan
           Team Structure, Contacts and Call List- Describes the recovery team, key
           personnel. Information on the Hot Site Vendor and other requirements
           B,ackup Procedures - Documentation of the backup procedures. Information
           on inventories of hardware and software. Special configurations of off site
           data
           Recovery Procedures
           Implementation Plan - Required tasks for the execution of the disaster
           recovery



      Page 62
Ms. Jo-Ann Swift
November .I5, 1999
Page 25



            Test Plan - Information on various ways to test the plan
            Recovery Plan Maintenance - Maintenance requirements
            RelocationIMigration Plan- How to relocate from the HOT site back to a cold
            site or permanent site

            Thus, OASYS is prepared today and is always working to make itself even
better.


30.       PWC claims that OASYS does not have adequate procedures in place to      Pwcaie.
          ensure the securitv of its data.                                         See page 79.

      The OASYS building located at 4550 Victory Lane, Indianapolis, Indiana is a
secured building. Three outside doors are opened by access card only. The
receptionist admits visitors .to the building:' After identification through an intercom
system,the door lock is released.

      There are several levels of card access (1 through 8). Each level is keyed to
days of the week, holidays, computer room access and a specific time range.

       Each full-time employee is issued an access card at orientation. Standard
access level is AL2 unless modified by the hiring manager. Temporary employees are
not issued access cards.

      Security software controls activation of the access cards. A monitoring log
records card swipe date, time, name assigned to card and door accessed. The
software also allows for'inactivation, searches by card number or name.

       At the time of termination, Human Resources retrieves the access card and
returns it to the Facility Administrator. If the card is not returned, Human Resources
notifies the Facility Administrator and the card is immediately disabled.

       The data center at OASYS is within the secured building. It was originally
protected by a keypad entry system. This system required the entry of a series of four
numbers plus the asterisk key. OASYS submits that this system provided effective
physical security for the computing center. Furthermore, tjle access code was only
distributed to key system personnel.

      As communicated during the audit, OASYS was planning an installation of a
card-based system. 'OASYS has now successfully installed this new system. Now only
swipe cards will give access to the data center. Thus, the issue with the keypad entry
system is entirely moot.

      Pressurization of OASYS's sprinkler system is checked with a back blow
pressure check. This is a system wide check not specific to the data center. However,



          Page 63
  Ms. Jo-Ann Swift
  November 15,1999
  Page 26


 it does include the data center area. As you can see in the enclosures, OASYS1s
 system passed the inspection. See Attachment 23. Also, OASYS has had its fire
 extinguishers inspected and retagged as well as,rnaintenance on our HALON.
 Attachment 24.

        The only tenant employees that have access to OASYS1s data center are their
  key Information Technology Specialists. These individuals have a legitimate business
  need to access their application sewers. Additionally, the data center is physically
 located next to the OASYS System Administrator who keeps tabs'on personnel entering
 and exiting the data center. All access to OASYS data files is controlled by individual
 passcodes.
        OASYS now uses CD ROM technology to store claim images.. A copy of every
 CD has always been stored off site. As indicated to the auditors, OASYS was planning
 to begin off site storage for our other platforms- NT Servers.(Great PlainlGL, Workflow
 and Imaging, Automated Mailing, Email and Internet). This went into effect on August I ,
 1999.
 31.    PWC claims that certain Local Area Network ("LANn)environment logical
        securitv settinqs are not adequatelv or consistentlv applied.         PWC disagrees.
                                                                                   See. page 80.

       OASYS has many types of platforms: NT, VMS, HCPS, etc. They require more
than one concurrent connection to provide support to our users. There are 74
administration class users. Four of these accounts are used by applications with limited
access to specific programs and directories. Three of these accounts are related to
OASYS1s nightly MACESS photo imaging production that runs on several PC's over
night. Two of the users have two PC's they use to perform their jobs. The remaining
four worker accounts now have been restricted per PWC's recommendation.

       Regarding the easily guessed passwords, this number was taken from a snap
shot report of t h e system a s of July 28, 1999. At that time there were II users. With
passwords expiring every 30 days and the system set up to force users to change their
passwords to a unique password, this is a misleading statistic. Moreover, OASYS
executes the same report once a quarter and notifies the users if their password can be.
easily guessed.

      One user had no password. This account was a limited access account used with
a backup application that is no longer used and has been disabled.
       Thirty-one users are not required to change their passwords every 30 days.
Thirteen ofthese accounts are training accounts that have limited access. Ten of these
accounts are system support accounts that are used for scanning, nightly production,
network monitoring, etc. Four are short-term temporary accounts that areJocked during
times these accoucts are not in use. OASYS agrees that the remaining three users
should be restricted and this has been addressed.



                                               ..

  Page 64
   Ms. Jo-Ann Swift
   November 15,1999'
   Page 27


         With respect to VMS, the eight users with profiles'that were not set up to require
   30 day password changes have been modified to the 30 day policy.
          Regarding VMS dial in connections, OASYS utilizes secure id.technology. This
   credit card like device is issued to staff who-need to access VMS remotely. This card
   displays a new number every 60 seconds;' The remote user is required to enter and the
   appropriate match is performed.
           OASYS submits that this constitutes complete remedial action.
  32.      PWC claims that several claims processors have excessive dollar.
           authorization limits.                                            PwC disagrees.
                                                                                     See page 80.
          The OASYS pqlicy*fordollar amount alithorization is:
             Claim Processors up to $10,000.
             Claim Processor Leads, Business System Specialists and Auditors up to
             $25,000.
             Claim Manager up to $100,000 limit.

        OASYS disagrees that industry standard is $1,000 dollar for claim processors.
 This limit would make it cost prohibitive to meet claim timeliness. A limit at this level
 would require too many claims to be handle'd by rnultip!e personnel. It would also
 constitute a change in the terms of the contract.
      . PWC also is confusing payment limits with claim limits. OASYS bases authority
 on the amounts charged, not the amounts paid, the latter of which are always less.
 Enclosed is a document reporting the current dollar limits. See Attachment 25.
          OASYS takes special exception to the suggestion that operations management
. 'was "usually 'off-site and, therefore unavailable to answer questions and provide
  explanations for identified concerns." his is false. The audit took place over the last
  two weeks of July and early August' This is the peek summer vacation season.
  Nonetheless, OASYS kept management in place to facilitate the audit. Kate Hensley,
  the head of operations, went on a one-week vacation after getting mairied. Other
  management personnel were available. This does not warrant the negative implications
  of the draft audit report.
 33.     PWC claims that inadequate segregation of duties exists within both        RvCdirakrecs-
         OASYS1score claims processinq svsterns and its accountins svstems.         See page 80.

      PWG contends two employees had crossover duties or access that presented
some control concerns. One Business System Specialist had a dollar limit of $100,000.
This was due to her involvement in a special adjustment. She has since been modified



       Page 65
Ms. Jo-Ann Swift
November 15, 1999
Page 28



to be in compliance with OASYS's standard of $25,000. The accounts payable clerk's
security situation has been modified to remove her accounts receivable access.

       OASYS submits that these actions elimmate even the appearance that' a
potential problem exists.
                                                                                PWC disagrees.
                                          CONCLUSION                            See page 80.

       We hope these preliminary cornmefits will assure you that OASYS is working
diligently to address-the draft audit report. Rather than rush to an ill-conceived final
audit report, we respectfully request that you wait for 'OASYS to complete its work. This
will make PWC's job easier and its final audit report will be far more useful.

       Particularly, as.it stands now, with respect to the administrative cost review, the
 PWC draft audit report is worst than usetess. It is defamatory and damaging. It is
imperative that OASYS be given sufficient time to address the broad and erroneous
claims made therein. This involves considerable effort and resources. A rush to
judgment by PWC will not be in the interest of the Corporation, PWC or OASYS. Again,
we appeal for patience while OASYS systematically documents andlor investigates the
 remaining items.

        We will endeavor to provide our supplemental response piecemeal, if that is
desired, or at one time, if that is preferred. Please let us know. We would also like t o
arranae a meetina at vour office .to go over the direct iabor cost issue and explain
once again OASYS's method of accounting for direct labor. OASYS could walk you
through the payroll and billing documentation again and hopefully we can put that
critical issue to rest. At that time we would also like to discuss the concerns we have
regarding your report. We expect much of the invective and misinformation to
disappear from the final report. We recognize that time pressures may have resulted in
the draft work product, but we wish to assure that it does not carry forward into the final
audit report.

       We look fonnrard to working cooperatively to resolve the audit issues.

                                       espectfully submitted,


                                     Daniel B. Abrahams
                                     Constance A. Wilkinson

                                     Counsel to Outsourced Administrative Services, Inc.



Enclosure



        Page 66
Ms. Jo-Ann Swift
November 15,1999
Page 29



cc:   Mr. Wood Parker
      Ms. Jennifer Ponski
      Ms. Luise S. Jordan




      Page 67
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC9sEvaluation

PwC's Evaluation of OASYS' Response

On the afternoon of Friday October 15, 1999, the OIG instructed PwC to release the draft report
to OASYS for their comment. We immediately faxed a copy of the draft report to OASYS and
sent the original via overnight delivery to OASYS' Chief Executive Officer. PwC vehemently
disagrees with OASYS' statement made through its legal counsel that OASYS received the draft
audit report in "installments." The entire report was faxed to OASYS and the entire report was
sent via overnight delivery on October 15.

OASYS asserts that pertinent information was withheld from them until November 9, 1999. PwC
does not agree with this statement. During the telephone exit conference held on October 6,
1999, PwC went over each finding in the draft report in detail with OASYS' Chief Financial
Officer, Director of Information Technology and Director of Operations. OASYS was provided
with the opportunity to ask questions, and we answered all the questions OASYS posed during
this telephone exit conference. We also provided OASYS with the opportunity to request further
support or clarification. During the exit conference, OASYS asked for the error tables from the
claims re-adjudication. Those were provided by facsimile on October 15 with the draft report (as
was agreed in the exit conference) and were followed-up with hard copy by overnight delivery.
At no time did any representative from OASYS ask for any other information.

Health Care Claims Review

PwC performed the health care claims review at OASYS to determine if the claims were
processed and paid in accordance with the health benefits plan outlined in the Corporation's
contract. For the majority of the claim errors, PwC provided OASYS' representatives with all
our questions and concerns about each claim error in writing. OASYS representatives were
provided the opportunity to respond in writing. Errors were agreed to and signed off by the
OASY S representatives. Set forth below are responses to OASY S' objections and related
assertions in OASYS' response to the draft audit report.

1. PwC claims there are $3.81 8,399 of extrapolated overpayment monetary errors and
   $1,349,652 of extrapolated underpavment monetary errors.

    OASYS was not able to produce documentation for 49 claims at the time of our on-site
    fieldwork, including the 15 claims that OASYS states were paid directly by the Corporation.
    Therefore, we were not able to review these claims. OASYS should provide any new
    information from its ongoing research to the Corporation for consideration in the audit
    resolution process.

    With regard to the "spreadsheet charts" recently mailed to PwC by OASYS' legal counsel,
    PwC provided OASYS' representatives with all questions in writing during our on-site work.
    OASYS representatives responded in writing. Errors were agreed to and signed off by the
    OASYS representatives. The charts were not available for our review during the on-site
    fieldwork. As directed by the Corporation, OASYS should provide this information and any
    new information from its ongoing efforts to the Corporation for consideration in the audit
    resolution process.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

2. PwC claims OASYS' financial error rate is significantly greater than industrv standards.

   The financial error standard is based on "industry best practices" established by large,
   national fully insured and self-insured plans. On a periodic basis, PwC reconsiders the
   established benchmarks to remain current regarding the industry standards.

    PwC has not erroneously calculated the financial error rate. The conclusions we reached in
    findings 3 through 9 were not erroneous. We will discuss separately each finding in detail in
    the relevant section.

    PwC does not agree with OASYS' statement made through its legal counsel that eligibility
    data is the sole responsibility of the Corporation. It is OASYS' contractual responsibility to
    validate and ensure that members were eligible on the date of service before processing and
    paying the claim. According to the contract, Section J, Attachment I, Statement of Work,
    page 22, item number 3; OASYS was to submit a monthly EnrolImentlEligibility Report for
    internal control and verification of eligibility updates. Claims were paid with open-ended
    termination dates even though OASYS is aware that the Corporation health benefits plan is
    valid for a twelve-month period only. If the member re-enrolled for the next year, a new
    effective and termination date should be entered into the system to alert the processor that the
    member is (is not) eligible on the date of service. Determining eligibility is one of OASYS'
    contractual requirements. Therefore, the claims paid for members not eligible on the date of
    service are financial errors.

    PwC has not suggested that OASYS reduce its financial error rate to zero. Organizations in
    the industry are achieving and maintaining financial error rates of less than 1 percent. In
    addition, PwC has no knowledge of the financial error rate (2 percent) proposed by OASYS
    in its RFP to the Corporation. As we reported, our sample revealed error rates ranging from
    2 1.6 to 28.2 percent.

    The PwC analysis did not confuse clericalltechnical issues, such as data entry, with financial
    errors as OASYS asserts. Each error was carefully considered and analyzed by both the
    auditor and the on-site health care claims expert before they were categorized as monetary,
    non-monetary or potential errors. All errors that had an impact on the dollar value of the
    claims paid were considered monetary errors, including some data entry errors. Errors that
    had no impact on the dollar value of the claims paid were considered non-monetary errors,
    including some data entry errors.

    PwC recognizes that the Corporation's health plan beneficiaries have a one-year benefit
    program and that there is a high turnover rate. PwC acknowledges OASYS' comment,
    through its legal counsel, that ". .. the members are also not your average group plan
    membership demographically - for example they are predominately female." Nonetheless,
    with adequate internal controls, claims administration for this group should be no different
    than for any other self-insured or fully insured group.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

3. PwC claims OASYS is not performing Coordination of Benefits (COB) investigations
   required by the contract.

   OASYS through its legal counsel asserts that PwC did not identify which of the claim
   numbers are identified with which errors. PwC does not agree with this statement. PwC
   provided OASYS with the claims error tables, which list each error by sample number and
   provides a description of the error. PwC also provided OASYS with the list of the 800
   sample claims, which includes the claim number. Therefore, OASYS had all the information
   necessary to identify the 53 claims identified as errors. For example, the error table for FY
   1995 identifies sample claim 139 as an error because of COB. Sample 139 is identified as
   claim number 95 14205 170 in the sample list. Further, PwC provided OASYS with the
   written claims review form for all questioned claims. Nothing precluded OASYS from
   making copies of those forms for their records, and in fact most auditees do that.

    We agree with OASYS' statement that the errors fall into two categories - dependent
    insurance and Medicare. According to the Corporation's contract, Section J, Attachment I,
    Statement of Work, page 19 states:

        "Exclusions - The following services and supplies are not covered under the CNCS
        Health Benefits Program unless the contractor is directed in writing by the CNCS
        Contracting Officer to provide payment for these services --Services for which a
        VolunteertCorps membertleader is eligible for reimbursement under Medicare or any
        private group health insurance plan."

    While it may be standard in the insurance industry for worker's insurance to be primary, the
    Corporation health benefit plan does not cover employees. But this argument is irrelevant
    since the contract speaks specifically on this topic.

    OASYS did not investigate COB for Medicare based on the volunteer's age. For the errors
    identified, it was clearly documented on the UB 92 claim forms that the volunteer had
    Medicare. Secondly, the amount paid was charged as a monetary error for each identified
    error. OASYS had the opportunity to determine what the correct payment should have been
    and inform PwC when we were on-site and providing OASYS with the results of our analysis
    on a daily basis.

    At no time did PwC state that OASYS was not performing any COB investigations. We
    found that COB investigations were performed inconsistently. Further, we did not see any
    evidence that OASYS was obtaining COB information as required by the contract. Section J,
    Attachment I, Statement of Work, page 23, Item 2b states:

          "The contractor shall furnish CNCS with questionnaires to be completed by
          VolunteerstCorps membersLeaders for other coverage information. The information
          from the completed questionnaire shall be entered into the claims processing system after
          initial enrollment of the Volunteers has been processed.

          COB information shall be updated according to statements indicated by the
          VolunteersICorps membersLeaders on hislher claim forms. This information may be
          verified annually through the use of automatically generated other insurance
          questionnaire. If a questionnaire is not answered within 30 days, a follow up



Page 70                                                                   /~XW~@HO~~OPERS
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

          questionnaire shall be sent. If the second questionnaire is not answered within 30 days,
          claims may be denied until the questionnaire has been returned.

          The claims processing system shall maintain all necessary information to automatically
          process claims involving coordination of benefits. The system shall refer to the
          Volunteer's information stored on a single file. The file shall be referenced to determine
          if the benefit payments need to be coordinated with another carrier, including Medicare.
          To achieve savings, other carrier payments shall be used to reduce CNCS's benefit
          liabilities."

   PwC does not wish to alter the contract terms as asserted by OASYS through its legal
   counsel. PwC does recommend, however, that the Benefits Brochure be revised to accurately
   reflect the terms of the Health Benefits Plan as described in the contract. Regardless, PwC
   recommends that OASYS use the terms of the contract, rather than the Benefits Brochure, to
   administer the Corporation's health benefits plan.

4. PwC claims OASYS is not performing Third Party Liability ("TPL") Investigations as
   required by the Contract.

   Section J, Attachment I, Statement of Work, page 21 of the contract states:

          "Exclusions - The following services and supplies are not covered under the CNCS
          Health Benefits Program unless the contractor is directed in writing by the CNCS
          Contracting Officer to provide payment for these services --Services eligible for coverage
          under a personal protection (PIP) contract or no fault auto insurance."

   In addition, Section J, Attachment I, Statement of Work, page 22, Contractor Reports,
   Number 7 requires OASYS to submit a Quarterly Coordination of Benefits (COB) and
   Subrogation. The report is to include charges, payment amount recovered, percent savings,
   and savings resulting from Medicare payments. PwC does not agree with OASYS'
   assessment that the Corporation is liable and primary payer for these identified issues. It is
   OASYS' decision to either pay and pursue or suspend and pursue. Further, the Corporation
   by virtue of the contract expressly relies on OASYS to perform the agreed-upon services on
   the Corporation's behalf.

   Again, there was no supporting documentation provided to validate that OASYS was indeed
   performing TPL. Errors identified had Explanation of Benefits (EOB) attached to claims that
   documented the payments made by primary payers. Also, the staff at OASYS did not
   document that the accidents occurred in States with no PIP and/or no fault insurance. PwC
   agrees that the full amount should not have been paid by OASYS, but this is exactly what
   occurred in the identified errors.

   OASYS through its legal counsel implies that PwC is somehow recommending that the
   Corporation deny care to its members. At no time has PwC recommended that the
   Corporation deny care. OASYS is contractually responsible to administer the benefit plan as
   defined by the contract and pay for all medically necessary, approved care. Any member
   may obtain care, but the benefit plan and its administrative requirements determine what the
   Corporation will pay for. Holding a member or another primary payer financially responsible




Page 71                                                                                 t4P E R S
                                                                           /~?KEW!P?HO~~O
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC9sEvaluation

   for obtained care is certainly not denying care and it is outrageous that OASYS would
   contend that PwC would imply this.

   PwC claims that OASYS inconsistently and inaccurately applied pre-certification penalties.

   The determination of identified errors for the application of pre-certification penalties was
   based on documentation provided by OASYS representatives, who in turn agreed that the
   errors had occurred during processing. If OASYS has new information that was not available
   to us during the review, they should provide it to the Corporation during the audit resolution
   process.

   PwC claims that OASYS paid for medical procedures related to pre-existing conditions that
   should not have been paid.

   OASYS asserts that it was not asked to produce supporting documentation for seven potential
   monetary errors relating to pre-existing conditions. PwC does not agree with that statement.
   PwC provided OASYS' representatives with all our questions and concerns about each claim
   error, including potential errors, in writing. OASYS representatives were provided the
   opportunity to respond in writing. Errors were agreed to and signed off by the OASY S
   representatives.

   Once again OASYS implies that PwC has recommended that the Corporation deny care.
   PwC at no time suggested that the Corporation deny care. Any member may obtain care,
   but the benefit plan requirements determine what the Corporation will pay for. Holding a
   member or another primary payer financially responsible for obtained care is certainly not
   denying care.

   PwC claims OASYS paid claims for ineligible members.

   PwC does not agree with OASYS' statement made through its legal counsel that eligibility
   data is the sole responsibility of the Corporation. It is OASYS' contractual responsibility to
   validate and ensure that members were eligible on the date of service before processing and
   paying the claim. According to the contract, Section J, Attachment I, Statement of Work,
   page 22, item number 3; OASYS was to submit a monthly Enrollment/Eligibility Report for
   internal control and verification of eligibility updates. Claims were paid with open-ended
   termination dates even though OASYS is aware that the Corporation health benefits plan is
   valid for a twelve-month period only. If the member re-enrolled for the next year, a new
   effective and termination date should be entered into the system to alert the processor that the
   member is (is not) eligible on the date of service. Determining eligibility is one of OASYS'
   contractual requirements. Therefore, the claims paid for members not eligible on the date of
   service are financial errors.

   PwC contends the benefits outlined in the contract were misinterpreted in the health benefits
   brochure provided to the members.

   The issue of COB has been previously addressed in our evaluation of response number 3.
   Amendment M035 adds a $5 copayment for all doctors' office visits. There is a significant
   difference between a doctor office visit and outpatient service. Outpatient services include,
   but are certainly not limited to, doctor's office visits. Other health care services, such as



Page 72                                                                                          a
                                                                         P ~ I W ~ O ~ ~ O P E R S
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

   physical therapy, laboratory fees and x-rays, are also outpatient services. In addition, when
   asked what services were included, responses by OASYS staff were inconsistent. Claims
   should be processed according to the benefit plan outlined in the contract, not the Benefits
   Brochure. We agree with OASYS that it is the plan members who are harmed by the
   incorrect interpretation of this requirement.

9. PwC claims that benefit overrides occurred without documented approval from the
   Corporation's management.

   PwC identified payments for benefits that exceeded contract limitations and non-covered
   services. According to the contract, Section G, B4, the Contracting Officer's Technical
   Representative (COTR) does not have the authority to and may not issue any technical
   direction which change any of the expressed terms, conditions or specifications of the
   contract. Section G: C states that all technical direction shall be given to the Contractor in
   writing by the COTR. Furthermore, Section G: D states that if, in the opinion of the
   Contractor, any instruction or direction by the COTR is within one of the categories defined
   in B 1-5, the Contractor shall not proceed but shall notify the Contracting Officer in writing
   to modify the contract accordingly. OASYS did not fulfill its obligation to notify the
   Contracting Officer when benefits exceeded the contract limitations.

    Also, in Section J, Attachment I, Statement of Work, page 19, the contract states:

          "Exclusions - The following services and supplies are not covered under the CNCS
          Health Benefits Program unless the contractor is directed in writing by the CNCS
          Contracting Officer to provide payment for these services."

    It is clear that the contract required OASYS to obtain written authorization from the
    Corporation's Contracting Officer for benefit overrides.

10. PwC claims that OASYS did not comply with the processing time requirements in the
    contract.

    PwC measured the turnaround time as the period of time from the date of receipt of the claim
    submission until the date the transaction is completely processed and the appropriate check
    and EOB is issued.

    OASYS contends, through its legal counsel, that PwC claims that the industry standard for
    processing claims within 14 days is 90 percent. PwC does not agree with that statement.
    PwC does not use as a benchmark nor did it determine that the industry standard is 90
    percent. The contract, in Section J, Attachment I, Statement of Work on page 23 states that
    90 percent of clean claims shall be processed within 14 days. In addition, OASYS responded
    in the Claim Audit Questionnaire, that its own standard is 90 percent in 14 days. OASYS
    calculates its turnaround time from the date the claim is received to the date it is paid and
    includes weekends and holidays. There was no way for PwC to determine "clean" from
    "unclean" claims based on OASYS' response. However, it is our understanding that dirty
    claims are suspended, and all claims measured for turnaround time were processed and paid.
    Delay of claim determinations for gre-existing condition review should not have posed a
    problem for OASYS, since they claim to make medical review determinations in five
    working days.



Page 73                                                                   ~ V ~ A ~ ~ O ~ I
                                                                                          C O P E R S
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

   OASYS, through its legal counsel, states that PwC's analysis is "severely flawed if not
   grossly negligent." We take that allegation very seriously, have considered it thoroughly, and
   strongly disagree, finding the statement to have no merit whatsoever.
   OASYS also contends that our conclusions represent a fundamental misunderstanding by
   PwC of how to read the dates on the claim screen. PwC regularly performs turnaround time
   reviews in connection with projects of this type and is confident that dates were read correctly
   in this instance. Note that to proactively address any potential OASYS-specific variances or
   differences in systems, the PwC claims audit team was provided training by OASYS
   representatives on how to read data on the OASYS claim screens.

   OASYS contends that it has reports to show its internally determined turn-around times.
   These were not provided to us during on-site fieldwork and therefore we did not review them.

1 1. PwC claims that OASYS does not have adeauate inventory controls for claims
     documentation.

   PwC requested to see the log used to track claims received and sent for imaging based on the
   response provided by OASYS in the Claim Audit Questionnaire (Section 8.0: 8.2.), "We log
   receipts. Claim is not actually entered until it is scanned."

   PwC recognizes that OASYS has a sophisticated computerized imaging system, MACESS.
   The functions of the system would indeed reduce errors and document retrieval time.
   However, the Optical Character Reader function of the system was not operational at the time
   of the on-site work and processors were required to data enter the claim fields thus increasing
   the potential for data entry errors that would normally occur when hard copies are used to
   enter claims.

12. PwC claims that OASYS' Health Care Claims Processing System ("HCPS") has limited
    capabilities to accurately capture data elements as they appear on the submitted claims.

   PwC contends that in order to support the Corporation's efforts to maintain costs, the codes
   designated on the claims need to be entered into the system to perform cost-benefit analyses
   to identify where the benefit dollars are spent. PwC acknowledges the write-up describing
   OASYS' HCPS capabilities, however, quite simply, the codes were not entered into the
   system.

13. PwC claims that provider information in the HCPS does not appear to be accurate.

    The provider information found in the system was inaccurate as PwC identified claims that
    were paid as billed for participating providers and discounts were applied when the provider
    was listed in the system as non-participating. During a discussion with the Provider Relations
    manager, PwC was informed that OASYS was actively working with ForMost to update and
    maintain current information on provider status. Until the electronic downloads could be
    created, Provider Relations was trying to update files manually. PwC agreed with OASYS
    that it would be a more cost-effective avenue to pursue electronic updates given the
    magnitude of the discrepancies in the system.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

14. PwC claims that OASYS' processing error rate is significantly higher than industry best
    practice standards for self-insured programs.

   PwC contends that OASYS needs to correct identified problems to reach the industry
   standard of no more than 5 percent processing error rate.

15. PwC claims that OASYS has outdated policies and procedures related to claims process in^.

   PwC reviews an administrator's policies and procedures to determine if the policies are
   followed, provide an internal tool for processors and to learn the processes used to pay or
   deny claims. PwC disagrees with OASYS' view that this is a moot point.

16. PwC claims that OASYS holds claims payment checks in a desk drawer due to insufficient
    funds in its Corporation for National and Community Service claims payment account.

    OASYS unequivocally rejects this finding; yet, the fact remains that checks were in a desk
    drawer and were shown to PwC by OASYS personnel and its Director of Information
    Systems. PwC was told that the checks were being held for money to accumulate in the
    Corporation account so the checks could be released for payment. In addition, PwC was
    shown the computer statement that indicated the account balance. PwC did not state in its
    draft report that the checks were signed.

17. PwC claims that the customer service unit does not meet the minimum performance standards
    that OASYS has set for average telephone answering time and the corresponding
    abandonment rate.

    PwC based its findings on the information documented in the Claim Audit Questionnaire
    completed by OASYS. OASYS was measured by its own standards and does not meet those
    standards of 30 seconds average speed to answer and an abandonment rate of 5 percent.

Administrative Costs Review

18. PwC auestioned $2,209,436 (85 percent) of invoiced administrative costs primarily because
    OASYS allegedly could not provide adequate support for the charges.

   OASYS through its legal counsel questions why "the allowability matrix"(0ASYS' title for
   PwC's testing worksheets) was not provided initially as was the detailed breakdown of claims
   issues. During the telephone exit conference held on October 6, 1999, PwC went over each
   finding in the draft report in detail. OASYS was provided with the opportunity to ask
   questions, which we answered. We also provided OASYS with the opportunity to request
   further support or clarification. During the exit conference, OASYS asked for the error tables
   from the claims re-adjudication. Those were provided by facsimile on October 15, 1999 with
   the draft report (as was agreed in the exit conference) and were followed-up with hard copy by
   overnight delivery. At no time did any representative from OASYS ask PwC to see "the
   allowability matrix". If it had been requested, we would have provided it as we did the claims
   error tables. The only request for this documentation came through the OIG on November 8,
   1999 and the requested tables were provided the same day.
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

   a. Salaries and Fringe Benefits

      OASYS, through its legal counsel, contends that the questioned $651,582 in salaries and
      fringe benefits is the "most shocking conclusion in the audit report". They state that
      OASYS was able to fully support the labor costs billed to the contract with timekeeping
      records. Yet, they further state, "For the first three years of the contract, OASYS
      employees did not complete timecards. Employees were assigned to and generally
      (emphasis added) dedicated to a particular contract and their labor costs were charged to
      that cost center." Without timecards or an alternative method of recording actual time
      worked by charge code (i.e. timekeeping records), PwC was unable to determine what
      portion of the payroll for employees' "generally dedicated" to the Corporation's contract
      is for efforts expended on behalf of the Corporation as opposed to other contracts,
      vacation, sick leave, holidays, or training. Further, OASYS' general ledger does not break
      out salary expense by direct and indirect salary (including vacation, sickness, holiday or
      training).

      OASYS, through its legal counsel, states that it provided detailed payroll reports for the
      first three contract years. PwC does not agree with this statement. OASYS was not able
      to provide any support for costs that were incurred in calendar year 1994. OASYS further
      states that this report was explained in detail to one of the three auditors, who left the site
      in the middle of the on-site fieldwork. PwC does not agree with this statement. OASYS
      explained this report to the audit senior and both staff auditors, including the auditor who
      left the site earlier than the others.

      OASYS states that it had no difficulty performing a reconciliation of its payroll records to
      the general ledger. Further, OASYS through their counsel states, "Perhaps the auditors
      were unable to duplicate the process, as reflected by their comment at the time of the
      request that performing the reconciliation would be a 'challenge' to them, but the records
      are not the source of difficulty. The auditors' inability to perform the simple
      reconciliation is evidence of their lack of basic payroll knowledge. As another example,
      the supervisor of the administrative costs audit team, questioned three OASYS
      management employees on separate occasions about its FICA tax charges, apparently
      unaware that FICA has both an employee and an employer component."

      OASYS was requested to perform the reconciliation because it is their contractual
      responsibility to adequately support all costs incurred for and billed to a contract and not
      because PwC would have found it "challenging" as OASYS contends. Further, we find
      the statements made by OASYS through its legal counsel to be highly inflammatory and
      not based in fact. Prior to joining PwC, the senior auditor (who OASYS refers to as the
      supervisor of the administrative costs audit team) served two years as a senior tax auditor
      for a major Federal agency. In this role she supervised seven other accountants and was
      responsible for managing, reviewing and coordinating all tax activities, including payroll
      taxes. She also served for more than three years in the payroll department of that agency,
      including two years as payroll supervisor. Although hardly necessary to mention, she is
      well aware, as are all PwC auditors, that FICA has both an employee and an employer
      component.

      As for the reconciliation performed by OASYS management, OASYS did not prepare a
      reconciliation for Calendar Years 1994 or 1995. Further, for each month that a
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

      reconciliation was attempted, there is an unreconciled balance. This perhaps explains
      OASYS' "lack of difficulty" as described by its legal counsel. However, an exercise
      referred to as a reconciliation generally does not yield an "unreconciled balance". Clearly,
      OASYS was not able to reconcile its payroll records to its general ledger.

      OASYS states through its legal counsel that in the final contract year, an intranet based
      time reporting system was installed in which employees make time entries daily into the
      computer and payroll charges are booked to a direct cost center. OASYS provided PwC
      with internal e-mail messages in support of this time recording system, including the
      following:

               To the account representative in charge of the Corporation's contract, dated
               August 20, 1998 - "There were no hours reported in the time reporting system by
               several members of your staff for the month of July. I need an approx. percent of
               spent on each contract for payroll allocation. If could let me know by Fri. noon, I
               would greatly appreciate. Thanks!"

               In response to an identical request made to another party, dated August 20, 1998
               - "I am not familiar with the time reporting system. Am I supposed to be
               inputting my time and tracking my employees' time? ... If I am to use this
               system, can you tell me who I contact to train me?"

       It is apparent from these statements that OASYS' employees were not using the system
       as intended and that some employees were not even aware that the system existed.

       It is clear that OASYS could not provide adequate support to show that the direct labor
       costs incurred and billed to the Corporation were actually incurred in support of the
       Corporation's contract. FAR 3 1.201 (d) states, "A contractor is responsible for
       accounting for costs appropriately and for maintaining records, including supporting
       documentation, adequate to demonstrate that costs claimed have been incurred, are
       allocable to the contract, and comply with applicable cost principles in this subpart and
       agency supplements. The contracting officer may disallow all or part of a claimed cost
       which is inadequately supported." We have not disallowed or categorized any of these
       invoices as unallowable. It is PwC's responsibility to question these costs as unsupported
       (and therefore potentially unallowable) and refer the matter to the Contracting Officer
       during the audit resolution process. We have stated that OASYS was unable to support
       its labor costs. Therefore, we were unable to make any determination as to the
       allowability of these costs.

   b. Consulting Costs

       During the course of the on-site fieldwork, PwC provided OASYS with the names of all
       consultants for whom consulting agreements were not made available, including Dr.
       Dalton. In its response made through legal counsel, OASYS asserts that the consulting
       agreement is now available. However, we were not able to review this information and
       therefore OASYS should provide this information to the Corporation for consideration in
       the audit resolution process.
Audit of Corporation for National and Community Service
Contract NO.-95-743-1005with Outsourced ~dministrativeSystems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

       OASYS, through their legal counsel, states that they find no "rhyme nor reason" to our
       approach to determining if the costs billed to the Corporation for Celtic Life Insurance
       were adequately supported. Throughout the course of the on-site review, we provided a
       listing of acceptable supporting cost documentation to their accounting staff. This
       included being able to support transactions with purchase orders, subcontracts or
       consulting agreements, invoices and copies of cancelled checks. OASYS asserts that the
       missing subcontract is now available. However, we were not able to review this
       documentation. Therefore, OASYS should provide this information to the Corporation for
       consideration in the audit resolution process.

  j.   Other Non-payroll Costs

       OASYS, through its legal counsel, states that we expanded the scope of our review to
       include all 40 invoices submitted and paid under the Corporation's contract. This
       statement is false and misleading. The scope of the audit, as clearly explained to OASYS,
       and as directed by the Corporation's OIG, was the entire period of performance for this
       contract, October 1, 1994 through September 30, 1998. This included all costs incurred
       and billed to the Corporation on all invoices. We initially planned to review a sample of
       16 invoices to see if the costs incurred were adequately supported. Unfortunately,
       OASYS was not able to provide adequate support for the majority of the costs incurred
       and billed on the sample invoices. We also noted significant control weaknesses (see
       finding numbers 23 - 27). Therefore, in response to this unexpected turn of events and
       after discussions with the OIG, we decided to expand the sample to 100 percent of the
       invoices.

       OASYS did not provide the support for the additional invoices in a manner that
       "facilitated the auditors' review" as OASYS states through its legal counsel. OASYS
       placed a significant number of boxes of records in a room and stated that the support for
       the invoices was in the boxes. It is the auditee's responsibility to organize their records in
       a manner that facilitates the audit process.

       OASYS through its legal counsel states that OASYS personnel were available to answer
       all auditor questions. We do not agree with this statement. Despite assuring us that the
       timeframe for the audit was acceptable to the accounting department, OASYS' accounting
       manager and senior financial analyst (our two appointed audit liaisons) were on vacation
       for one of the three weeks we were on site. Also, throughout the audit process, OASYS
       personnel were very slow to respond our inquiries.

       OASYS, in its response provided through its legal counsel, states that they have organized
       the support for one month, May 1998, to demonstrate the audibility of the costs. Because
       we were not provided with the information to support the 24 invoices in this manner, we
       were not able to audit the information. Therefore, OASYS should provide this
       information organized in this manner to the Corporation for consideration in the audit
       resolution process.

       OASYS states that we have violated FAR 3 1.201-2(c) by disallowing all costs relating to
       these invoices. We disagree with this statement. We have not disallowed or categorized
       any of these invoices as unallowable. We have stated that OASYS was unable to support
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

      these costs. Therefore, we were unable to make any determination as to the allowability
      of these costs.

Findings Nos. 19 through 27

   OASYS through its legal counsel states that our conclusions reached in this report are in
   sharp contrast to the conclusions of the Defense Contract Audit Agency (DCAA) which
   conducted a pre-award audit of the accounting system of Administar Solutions, Inc. The
   referenced pre-award audit has no relevance in this report.

    "DCAA's role in a preaward survey is normally limited to assessing a contractor's capability
    to perform a prospective contract and/or the adequacy of a contractor's accounting system to
    accumulate cost information required by a contract" according the DCAA Contract Audit
    Manual (CAM) Section 5-202. Section 6-102 of the CAM states that the primary objective
    of an incurred costs audit (the type of audit performed by PwC) is to examine the
    contractor's cost representations and to conclude as to whether the incurred costs are
    reasonable, applicable to the contract and determined under generally accepted accounting
    principles and applicable cost accounting standards and not prohibited by the contract,
    statute or regulation or by previous agreement or decision of the contracting officer. Further,
    DCAA conducted its audit in February of 1994; eight months prior to the contract start date.
    OASYS' reliance on DCAA audit findings is thus wholly inapposite to the audit at issue.

Computer Systems Review

28. PwC claims that OASYS does not have a complete set of policies and procedures governing
    svstems security administration and monitoring.

    OASYS did not provide us with a complete set of policies and procedures governing systems
    security administration and monitoring. The response provided through its legal counsel
    appears to represent an attempt to discredit PwC with unsupported allegations. OASYS
    states that they have developed a new set of system policies and procedures. OASYS should
    provide this information to the Corporation for consideration in the audit resolution process.

29. PwC claims that OASYS does not have an up-to-date business continuity plan in place.

    OASYS was unable to provide us with an up-to-date continuity plan.

30. PwC claims that OASYS does not have adeauate procedures in place to ensure the security of
    its data.

    In its response made through legal counsel, OASYS asserts that evidence of the inspection of
    the fire suppression systems is now available. However, we were not able to audit this
    information and therefore OASYS should provide this information to the Corporation for
    consideration in the audit resolution process.

    OASYS states that since PwC's on-site fieldwork, they have installed a card based entrance
    system for access to the data center. Again, OASYS should provide this information to the
    Corporation for consideration in the audit resolution process.




Page 79                                                                  ~ U ~ T ~ H O ~ P E R S a
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

3 1. PwC claims that certain Local Area Network ("LAN") environmental logical security settings
     are not adequately or consistently applied.

    OASYS claims to have taken corrective actions and submits that this constitutes complete
    remedial action. PwC was not provided with any of this information during our review and
    therefore was not able to audit it. OASYS should provide this information to the Corporation
    for consideration in the audit resolution process.

32. PwC claims that several claims processors have excessive dollar authorization limits.

    OASYS states that it disagrees that $1,000 is the industry standard for claims processors.
    PwC never stated that this was an industry standard. We stated that "in our experience with
    other health claim administrators, we have found that non-supervisory claims processors
    normally have dollar amount authorization limits of $1,000. Additionally, a member of
    senior management must normally approve claims over $10,000."

    OASYS further states that PwC is confusing payment limits with claim limits. PwC is very
    clear that it is talking about claims processing throughout that finding in the report.

    OASYS took special exception to the suggestions that management was off-site during our
    on-site fieldwork and therefore unavailable to answer our questions. PwC contacted OASYS
    management three weeks before our planned site visit. We asked OASYS if this time frame
    (July 12 through August 6, 1999) would pose a problem for them. If it did, we would
    reschedule the visit. OASYS said that the planned timeframe posed no problem for them.

    Nevertheless, the Accounting Manager, the Senior Financial Analyst, the Director of
    Information Systems and the Director of Operations were not available for significant
    portions of this on-site fieldwork.

33. PwC claims that inadequate segregation of duties exist within both OASYS' core claims
    processing system and its accounting systems.

    In its response made through legal counsel, OASYS concurred with our finding and states
    that measures have been taken to rectify the problem. However, we did not have an
    opportunity to review these measures. Therefore, OASYS should provide this information to
    the Corporation for consideration in the audit resolution process.

    Conclusion

    OASYS states in the conclusion of its response made through its legal counsel:

        "We hope these preliminary comments will assure that OASYS is working diligently to
        address the draft audit report. Rather than rush to an ill-conceived final audit report, we
        respectfully request that you wait for OASYS to complete its work. This will make
        PwC's job easier and its final report will be far more useful.

        Particularly, as it stands now, with respect to the administrative cost review, the PwC
        draft report is worst (sic) than useless. It is defamatory and damaging. ... A rush to
        Qudgement by PwC will not be in the interest of the Corporation, PwC or OASYS."
Audit of Corporation for National and Community Service
Contract No. 95-743-1005 with Outsourced Administrative Systems, Inc.
Appendix B - OASYS' Response and PwC's Evaluation

   We do not agree that this report is ill conceived. It is not PwC's responsibility nor do we
   have the authority to review information that OASYS has accumulated since the end of our
   fieldwork. We believe that this report is extremely useful to the Corporation.

   We do not agree that the administrative cost review was "worst (sic) than useless" or
   "defamatory and damaging." PwC is not "judging" OASYS. We were tasked, as described
   in the objectives section of this report, with determining if administrative costs claimed are
   contractually allowable or were incurred specifically for the contract effort with adequate
   support and charges in accordance with OASYS' cost accounting system, contract terms,
   applicable laws and regulations including FAR, and applicable cost accounting standards.
   We concluded that the majority of administrative costs incurred were not supported with
   sufficient adequate documentation that would permit us to make a determination of
   allowability in accordance with the cost principles in FAR Part 3 1 and the terms of the
   contract.
                                                                         CORPORATION

                                                                         FOR NATIONAL

MEMORANDUM


DATE:      11/ 15/99


TO:        Luke Jordan, OIG

FROM:      Simon G. Woodard    --      6.
           Director, Procurement Services
                                            d a4

CC:        Wendy Zenker, COO
           Wilsie Minor, Assistant General Counsel


RE:        OIG Report 00-21, Draft Audit of Contract No. 95-743-1005with Outsourced
           Administrative Systems, Inc. (OASYS)



The subject draft report cites conditions and deficiencies pertaining to the performance of
Outsourced Administrative Systems, Inc. under Contract No. 95-743-1005. We have
reviewed the draft report and do not have specific comments at this time. We will address
the findings and recommendations in the final management decision.




                                                                         1201 New York Avenue. NW
                                                                         Washington, DC 20525
                                                                         Telephone 202-606-5MX)




                                                                         Getting Things Done.
                                                                         AmeriCorps. National Service
                                                                         Learn and Serve America
                                                                         National Senior Service Corps
